GSA's SIGNIFICANT MANAGEMENT CHALLENGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and
discussed in this semiannual report.




PROTECTION OF              GSA is responsible for protecting the life and safety        2
FEDERAL                    of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

                           Management controls have been                                3-10
                           in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and
                           followed.

PROCUREMENT                Simplified processes have reduced order and delivery         10 -14,
ACTIVITIES                 time, yet competitive principles are not always followed     19 -24
                           and opportunities may be missed for less costly services
                           and products.

                           Technology applications have increased exponentially         14-18
                           as HE-Gov" is used to better manage operations and
                           interfaoe with the public, but complex integration and
                           security issues exist.

HUMAN CAPITAL              GSA's corporate knowledge is eroding and efforts to          No
                           obtain requisite skills for the future are impeded. Better   Reports
                           recruitment and training programs are needed to              This
                           develop the 21 st century workforce.                         Period

                           GSA is being challenged to provide quality space to          No
                           Federal agencies using an aging, deteriorating inventory     Reports
                           of buildings and facing critical budgetary limitations in    This
                           its modemization program.                                    Period
          Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the six-month reporting period that ended March 31, 2003.

During the past six months, we continued to work with GSA to identify
business management and operational improvements in the Agency’s
programs and operations. In addition, we issued a number of reports
focusing on the major management issues facing the Agency, including
management controls, procurement activities, and information technology. In
particular, we examined management control aspects of various GSA
contract programs, including brokerage contracts, construction claims, and
Service Center procurements. We continued our reviews testing compliance
with controls over purchase cards. We reported concerns with the lack of
oversight by approving officials, the lack of documentation to support
decisions, and improper purchases by cardholders.

We identified over $50 million in financial recommendations on how funds
could be put to better use and in other program savings. We achieved over
$100 million in management decisions agreeing with audit recommendations,
civil settlements, and direct recoveries. We made 218 referrals for criminal
prosecution, civil litigation, and administrative action. Criminal cases
originating from OIG referrals resulted in 19 successful prosecutions.

I want to express my appreciation to Congress, as well as to the senior
management of the Agency, for their support over this past year to the
mission of this Office. I also want to express my appreciation for the
accomplishments of all OIG employees and commend them for their
continued professionalism, dedication, and willingness to accept new
challenges.




Daniel R. Levinson
Inspector General
April 30, 2003
      Table of Contents




                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . .2

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .19

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .28

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .33

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .35

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .43

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .45

Appendix III – Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .56

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .69

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .71

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .72

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral



                                                                     Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     October 1, 2002 – March 31, 2003

                        Total financial recommendations                               $50,127,715

                        These include:

                        • Recommendations that funds be put to better use             $50,031,225

                        • Questioned costs                                               $96,490

                        Audit reports issued                                                98

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                              218

Results Attained        Management decisions agreeing with audit
                        recommendations; civil settlements; and
                        court-ordered, audit, and investigative recoveries            $102,007,187

                        Indictments and informations on criminal referrals                  22

                        Cases accepted for criminal prosecution                             20

                        Cases accepted for civil action                                     10

                        Successful criminal prosecutions                                    19

                        Civil settlements                                                    2

                        Contractors/individuals debarred                                    45

                        Contractors/individuals suspended                                   21

                        Employee actions taken on administrative referrals
                        involving GSA employees                                             21




                                                                         Office of Inspector General v
                           Executive Summary




                         During this period, the OIG continued to direct its audit, investigative, and
                         evaluative resources to activities that address what we believe to be the
                         major management challenges facing the Agency. We provided a variety
                         of traditional services, including program evaluations; contract and
                         financial auditing; management control reviews; and investigative
                         coverage and litigation support in contract claims, civil fraud and
                         enforcement actions, and criminal prosecutions. We also continued to
                         provide professional assistance services and reviews of proposed
                         legislation and regulations.

                         Management Challenges
                         We have highlighted a number of reviews that address major
                         management issues facing GSA. We continued our work in addressing
                         these challenges, making recommendations, and working with
                         management to improve Agency operations. During this period, our
                         efforts included work focusing on the protection of Federal facilities and
                         personnel, management controls, procurement activities, and information
                         technology (IT).

                         Protection of Federal Facilities and Personnel
                         For the past several years, our semiannual reports have highlighted our
                         involvement in the assessment of the physical security program managed
                         by GSA’s Federal Protective Service (FPS). Through the issuance of
                         more than 25 audit and special Alert Reports, we have worked to help
Transfer of FPS to DHS   foster substantial improvements in the overall security program.
                         However, the program still faces many challenges, made greater in light
                         of recent terrorist events (page 2).

                         On March 1, 2003, the Federal Protective Service was transferred to the
                         Department of Homeland Security (DHS). We prepared a transition
                         paper and met with DHS' Office of Inspector General to discuss what we
                         believe are key operational issues that arise with the transfer. While FPS
                         is no longer a part of our Agency, GSA needs to closely interact with
                         security personnel. Ensuring that Federal employees have a secure work
                         environment and that building assets are adequately safeguarded will
                         remain a primary concern of GSA (page 2).

                         Management Controls
                         The Public Buildings Service (PBS) has used both national and regional
                         brokerage contracts to obtain lease acquisition services. The national
                         contract expires soon and PBS needs a replacement. Our review
Brokerage contracts      assessed the manner and extent to which PBS uses the brokerage
                         contracts in several metropolitan areas. We found control weaknesses in
                         the financial, ordering, and administrative aspects of the contracts. PBS
                         management is using our report as a roadmap to guide development of
                         the new contract (page 3).


                                                                          Office of Inspector General vii
                                           Executive Summary




                                         In recent years PBS construction projects have incurred more frequent
                                         and higher dollar construction contractor claims. In one region, claims on
                                         its more recent construction projects totaled over $125 million. The OIG
    Construction claims                  reviewed three of the six construction projects to determine the causes
                                         for claims and what actions can be taken to reduce future claims. We
                                         attributed the claims to two major conditions — not choosing the most
                                         suitable contractors and ineffective project administration. We
                                         recommended that potential contractors be more carefully evaluated and
                                         that PBS more vigorously enforce contract clauses dealing with
                                         scheduling and progress payments (page 4).

                                         An OIG Hotline tip led to our review of over $9 million of procurement
                                         actions made by a regional Service Center responsible for maintaining
       Service Center                    and operating GSA-controlled buildings. The majority of the contract files
       procurements                      examined lacked documentation to demonstrate that prices were fair and
                                         reasonable or explain why awards were based on other than full and
                                         open competition. In most files there was little evidence to support the
                                         negotiation of the contract prices (page 6).

                                         A PBS contract awarded to support a community revitalization initiative for
                                         a major city’s Downtown Improvement District was negotiated by a
 Good Neighbor Program                   person lacking proper contract authority and awarded based on a flawed
                                         price analysis. GSA has never inspected the contractor’s work nor
                                         tracked additional services provided. The contract value to date exceeds
                                         $893,000 (page 7).

                                         While efforts of the Chief Financial Officer have brought use of travel
                                         cards under sound control, our audits continue to find non-adherence to
                                         control procedures for purchase cards. Lack of oversight by approving
  Purchase card controls                 officials, lack of documentation for transactions, and inappropriate
                                         transactions by cardholders were again found in several reviews. While
                                         most individual infractions were minor, collectively the pattern indicates
                                         control issues still exist. Moreover, one review at a regional Service
                                         Center found $1 million in undocumented or inadequately documented
                                         purchase card transactions (page 7).

                                         In a series of other control reviews, we found that:

                                         • Management did not adequately maintain and control access to the
  Secured item inventory                   secured item inventory at the Western Distribution Center in Stockton,
                                           California. These highly pilferable stock items are valued at more than
                                           $3 million. We noted that unauthorized individuals were able to enter a
                                           secured area without signing in, and the gate alarm was ignored
                                           because it was so frequently activated (page 9).




viii Semiannual Report to the Congress
                            Executive Summary




                          • A Fleet Management Center responsible for 2,500 vehicles valued at
Fleet Management Center     $36 million, did not perform an annual inventory of vehicles, did not
        controls            adequately control the destruction of charge cards and license plates
                            for vehicles that were sold or removed from service, and did not
                            maintain a purchase card transaction log or adequately review the Fuel
                            Capacity/Quantity Purchased Mismatch Report. These procedures are
                            all required as basic controls to help identify fraudulent or questionable
                            purchases (page 10).

                          Procurement Activities
                          An ongoing audit of the Federal Technology Service’s (FTS) Client
                          Support Centers (CSC), found misuse of the IT Fund and significant
                          inappropriate contracting practices. In one instance, our review disclosed
                          that FTS, using purchase orders citing the IT Fund, spent over $36 million
                          for construction work and building renovations at United States Army
 Misuse of IT Fund        facilities. The IT Fund was established to acquire computer services and
                          related technologies. In another example, FTS renovated a conference
                          center in Eastern Europe using the IT Fund. Rather than detailing the
                          costs of subcontracting architectural and construction work, the contractor
                          for the facility proposed 10,000 hours of “IT technician” time. Our review
                          also revealed numerous examples of inappropriate contracting practices
                          including wholesale changes to a task order’s scope without benefit of
                          contract modification and the splitting of procurements in order to stay
                          below a $3 million sole source threshold. Due to significant concerns, we
                          issued an Alert Report to management for its immediate attention
                          (page 10).

                          The Federal Supply Service’s (FSS) City Pair Program provides Federal
                          travelers discounted airfares between over 5,000 city pairs. The airfares
                          under this program average a 72 percent discount off comparable
FSS’ City Pair Program    unrestricted coach fares saving the Federal Government over $2 billion
                          annually. FSS is continually striving to improve the City Pair Program to
                          get the best possible value for the taxpayers. Through our efforts with
                          benchmarking partners, we identified potential opportunities for
                          improvements in the Program. We reported that other entities use “cost
                          per mile” data more extensively in pricing analysis. Analysis of routes
                          and air markets in different ways may also identify additional ways to
                          lower overall rates (page 11).

                          In 1998, Congress amended the Rehabilitation Act of 1973 and under
                          Section 508 of the Act, required Federal Agencies to give disabled
   Section 508 of the     employees and members of the public, access to information that is
   Rehabilitation Act     comparable to the access available to those without disabilities. The law
                          applies when agencies develop, procure, maintain, or use electronic and
                          information technology (EIT). Although GSA has done much to
                          implement the requirements of Section 508, it recognizes more can be



                                                                          Office of Inspector General ix
                                        Executive Summary




                                      done to enhance implementation. In our report we recommended
                                      additional actions that the Chief Information Officer could take in order to
                                      strengthen GSA’s commitment to implementing Section 508 (page 13).

                                      Information Technology
                                      In January 1999, the Office of the Public Buildings Service (PBS), Chief
                                      Information Officer established the Systems Development Center (SDC),
   Systems Development                operated by a private contractor, to address ongoing difficulties in
         Center                       developing and managing IT systems. Over a three year period, PBS
                                      paid the SDC contractor over $40 million. The quality and quantity of
                                      products and services delivered were well below expectations. Weak
                                      contract administration and poor contractor execution were the primary
                                      underlying causes preventing success. PBS has opted to not extend the
                                      contract (page 15).

                                      As part of an assessment of security controls for GSA’s various IT
                                      systems, we identified concerns related to the Agency’s management of
                                      Privacy Act and sensitive data. Online security training for GSA
 Privacy Act data controls            employees and IT service contractors did not include Privacy Act
                                      requirements or restrictions on unauthorized disclosures of personal
                                      information. We recommended that appropriate Privacy Act requirement
                                      clauses be included in IT support contracts and that roles and
                                      responsibilities for the protection of this sensitive data be made explicit to
                                      contractors (page 16).

                                      The wide area backbone network (WABN) is a nationwide
                                      telecommunications network that enables GSA to communicate via the
                                      Internet and Intranet and transmit data necessary for day-to-day
    Wide area backbone                operations. The Office of the Chief Information Officer (OCIO) has
          network                     centrally managed the network since 1996. The WABN will cost GSA and
                                      other users $5 million in FY 2003. GSA’s Services and Staff Offices
                                      (SSO) have doubled bandwidth requirements over the last few years in
                                      implementing new systems or enhancing existing systems. In our review,
                                      we identified opportunities that would enhance the network operations
                                      and better forecast future demands. We believe the OCIO should require
                                      pre-implementation testing of new systems by the SSOs in order to
                                      maximize the network’s performance, and enable the OCIO to better
                                      forecast future demand for bandwidth (page 17).

                                      Promoting and Protecting Integrity
                                      In our ongoing efforts to promote and protect the integrity of GSA’s
                                      programs and operations, we aggressively conducted investigations and
                                      pursued the prosecution of individuals and companies perpetrating
                                      criminal and civil fraud impacting GSA programs. A number of these
                                      investigations have led to enforcement actions during this semiannual
                                      period.


x Semiannual Report to the Congress
                             Executive Summary




                           Investigative cases dealing with employee integrity issues receive our
                           highest investigative priority. During this period, we conducted an
                           investigation which led to the identification of six individuals involved in a
                           bribery scheme concerning renovations or modifications to Federal
                           buildings. In this case a GSA building management specialist pled guilty
                           to accepting bribes and resigned his position. Two of the contractors
Bribery of GSA employees   involved in paying off the GSA employee pled guilty and three
                           subcontractors involved in the scheme were arrested; one pled guilty and
                           judicial actions are pending on the other two (page 19). In another
                           investigation we arrested two individuals in a bribery scheme involving
                           FTS contracts. We initiated this investigation after an FTS employee
                           reported to us that a GSA contractor had offered a bribe in exchange for
                           the award of a contract. Subsequently, the two individuals were observed
                           paying the cooperating GSA official a $2,500 bribe. Both individuals pled
                           guilty and were sentenced to incarceration (page 23).

                           The increased use of charge cards in government purchases for products
                           or services has led to increased investigative efforts both proactively and
                           in response to referrals which identify instances in which government
                           charge cards have been stolen or misused. Several cases involving
  Charge card misuse       charge card issues were concluded this period. A government official
                           agreed to pay $20,000 to settle potential civil False Claims Act liability for
                           misusing a government charge card (page 20). In another investigation,
                           an individual pled guilty to misusing a government charge card and was
                           sentenced to probation and community service (page 23). Ongoing
                           investigative efforts involving GSA-issued fleet charge cards resulted in
                           the sentencing of four individuals including one GSA employee for
                           misusing the cards and theft of government funds (page 22).

                           During this period, investigations were active in several programs and
                           operations of the Agency. In a case involving the use of stolen
                           commercial and government calling cards, an individual was sentenced to
                           37 months incarceration and ordered to pay $985,000 in restitution for
    Fraud schemes          stealing calling card numbers from unsuspecting travelers using phones
                           at airports (page 20). Also, in an investigation involving FSS contracts, a
                           supplier of medical technology equipment agreed to pay over $69,000 to
                           settle potential False Claims Act liability for supplying faulty blood
                           analyzing machines to the government (page 20). In another
                           investigation involving GSA auctions of excess government property, an
                           individual was sentenced to probation and agreed to pay over $65,000 in
                           restitution for committing fraud by reselling former government test crash
                           vehicles illegally to unsuspecting individuals (page 21).




                                                                             Office of Inspector General xi
                                          Executive Summary




                                        Summary of Results
                                        The OIG made over $50 million in financial recommendations to better
                                        use government funds; made 218 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 152 legislative and
                                        regulatory actions; and received 917 Hotline calls and letters. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling
                                        over $102 million. (See page v for a summary of this period’s
                                        performance.)




xii Semiannual Report to the Congress
                                        OIG Organization Chart




                                            Inspector General
     Office of Counsel to the IG
                                            Daniel R. Levinson      Office of Internal Evaluation
          Kathleen S. Tighe                                              James A. Amoroso
          Counsel to the IG              Deputy Inspector General              Director
                                              Joel S. Gallay


 Office of Administration                      Office of Audits            Office of Investigations
     John C. Lebo, Jr.                        Eugene L. Waszily             James E. Henderson
  AIG for Administration                       AIG for Auditing             AIG for Investigations

        Human                                     Audit                           Field Support
       Resources                               Operations &
        Division                               Administration
                                                                                  Zone Offices
                                                                                Washington, D.C.
       Information                               Information                       New York
       Technology                                Technology                        Chicago
         Division                                Audit Office                    San Francisco


     Administrative                                 Real                               Sub-Offices
      & Financial                                 Property                               Atlanta
     Management                                  Audit Office                            Boston
                                                                                       Philadelphia
       Division
                                                                                        Cleveland
                                               Finance & Staff                         Kansas City
                                                   Offices                              Fort Worth
                                                 Audit Office                          Auburn (WA)


                                                 Acquisition
                                                 Audit Office

                                                 Field Audit
                                                   Offices
                                               Washington, D.C.
                                                   Boston
                                                  New York
                                                 Philadelphia
                                                   Atlanta
                                                   Chicago
                                                 Kansas City
                                                  Fort Worth
                                                San Francisco


                                                       Sub-Office
                                                      Auburn (WA)




xiv Semiannual Report to the Congress
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, assessment of management
                        controls, and financial and compliance audits. The office also conducts
                        external reviews in support of GSA contracting officials to ensure fair
                        contract prices and adherence to contract terms and conditions. The
                        office additionally provides research, benchmarking, and other services
                        to assist Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review and Congressional liaison functions.

                      • The Office of Internal Evaluation, an analytical staff that provides
                        coverage of OIG operations primarily through management
                        assessments, and conducts internal investigations and reviews at the
                        direction of the Inspector General.

                      • The Office of Administration, which provides information technology
                        systems, budgetary, administrative, personnel, and communications
                        services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are maintained in Auburn
                      and Cleveland. (A contact list of OIG offices and key officials is provided
                      in Appendix VI.)

Staffing and Budget   As of March 31, 2003, our on-board strength was 278 employees. The
                      OIG’s Fiscal Year (FY) 2003 budget is $37.5 million.




                                                                       Office of Inspector General 1
                                      Management Challenges




                                      Each year since 1998, we have identified and shared with Congress and
                                      senior management what we believe to be the major challenges facing
                                      the Agency. This period we continued our work in addressing these
                                      challenges, making recommendations, and working with management to
                                      improve Agency operations. The following sections highlight our activities
                                      in these areas.

                                      Protection of Federal Facilities and Personnel
                                      Security in Federal Facilities
                                      For the past several years, our semiannual reports have highlighted our
                                      involvement in assessing the physical security program managed by
                                      GSA’s Federal Protective Service (FPS). During that time, we have
                                      supported the Agency in its efforts to implement new security standards
                                      developed after Oklahoma City by performing, in a systematic manner,
                                      detailed reviews of the major elements of the overall security program.
                                      We have issued more than 25 audit and special Alert Reports
                                      recommending improvements in all aspects of the physical security
                                      program.

                                      While we have seen substantial improvements in the overall security
                                      program since we started our evaluation work, both we and GSA
                                      management are aware that the program still faces many challenges –
                                      challenges that have been greatly expanded in nature and dimension by
                                      recent terrorist events.

                                      On March 1, 2003, the Federal Protective Service was transferred to the
                                      Department of Homeland Security (DHS). In anticipation of that transfer,
                                      during the last period we prepared a transition paper that outlined
   FPS transfers to                   operational issues facing GSA and the Department with the transfer of
  the Department of                   FPS. Prior to the transfer of FPS, we met with the Inspector General of
  Homeland Security.                  DHS and his staff to discuss a number of these issues, including:
                                      building security system operations; the contract guard program; and
                                      intelligence sharing between FPS, the Federal Bureau of Investigation,
                                      and GSA.

                                      While FPS is no longer a part of our Agency, GSA will have a continual
                                      need to closely interact with security personnel due to GSA’s mission of
                                      housing Federal agencies. Providing space requires a high degree of
                                      coordination and cooperation with building operations personnel, tenant
                                      agencies, community groups, local officials, and various architectural,
                                      environmental, and historic preservation organizations. Ensuring that
                                      Federal employees have a secure work environment and that building
                                      assets are adequately safeguarded must remain a primary concern of
                                      GSA.




2 Semiannual Report to the Congress
Management Challenges




Management Controls
In many areas throughout the Agency, management controls and
extensive supervisory reviews have been replaced, through streamlining
efforts, by fewer and broader controls. This has made it essential that the
remaining control processes be emphasized and consistently followed.
Streamlined processes have helped GSA achieve its goal of serving
customers quicker and more efficiently; however, the Agency is exposed
to the risk of mismanagement and abuse if program officials do not
ensure the faithful application of existing safeguards.

Contract Administration
Once a contract has been awarded, it becomes the responsibility of the
contracting officer or representative to ensure that contractors are
adhering to the terms and conditions they agreed to, that the products
and services we contract for and pay for are being provided, that they are
of the quality agreed to, and that they are delivered timely. Recently, we
have noticed that contract administration issues are more frequently
being raised in our audits. While these types of conditions may not be
new, there exists a trend that, if it continues to increase, could lead to
significant problems. With the recent emphasis on using contractors to
perform many of the functions now provided by government employees,
the importance of contract administration will grow considerably. With
weaknesses already existing now, GSA needs to undertake corrective
measures before the weaknesses increase.

  PBS’ Use of Brokerage Contracts. Over the past several years, as
  its realty staffs have declined, the Public Buildings Service (PBS) has
  placed increasing reliance on commercial brokerages to provide lease
  acquisition services. Through national and regional contracts, PBS can
  obtain full lease acquisitions or order specific tasks from a menu of
  realty services. Payment for these contracts has come from varying
  sources. At first, contracts were funded by appropriated monies. In
  2000, GSA legal counsel determined that PBS could accept a
  commission fee, collected through the brokers as a rebate from
  landlords, and use those commissions to pay the brokers and other
  realty expenses. More recently, as operating budgets became more
  strained, two PBS regions employed “zero dollar” contracts under
  which a brokerage is given a task order to complete a lease action for
  PBS without compensation from PBS. Instead, the brokerage keeps
  all commission fees it collects from the landlord. These newer
  approaches were designed to save PBS money by making the
  contracts self-funding. The national contract for brokerage services
  and most of the regional ones have expired or are soon to expire, and
  PBS is contemplating a replacement. Our audit assessed the manner
  and extent to which PBS has used the existing contracts and evaluated
  the control environment relative to the task order process.


                                                Office of Inspector General 3
                                      Management Challenges




                                      Management Controls (continued)

                                        Since award of the initial contracts in 1998, PBS has issued over
                                        950 task orders valued at more than $31 million. We noted
     Some lease                         deficiencies in the financial, ordering, and administrative aspects of
     acquisition                        these contracts. Unauthorized personnel placed several task orders
                                        for leasing projects without recording the financial liability. In many
     contracting                        instances, the task order requested services that were either poorly
  approaches have                       defined or could have been acquired at lower cost by ordering specific
 weak controls while                    services from the menu portion of the contracts. One region had so
                                        frequently circumvented standing procedures, it essentially lost
 others may breach                      financial control over its contracts and was required to formally ratify
  appropriation law.                    over $3 million in task orders issued by unauthorized personnel.

                                        In looking at the financial aspects of the contracts, we found that
                                        previous Agency legal advice had informed PBS headquarters that the
                                        use of “zero-dollar” contracts were a breach of the Antideficiency Act
                                        and an improper augmentation of authorized funds. When we raised
                                        this issue, PBS instructed the two regions to cease using these
                                        contracts. We also noted that the other forms of contracts being used,
                                        in which fees for specific services are established on a fixed-fee basis,
                                        are only marginally suitable for many of the larger, more complex lease
                                        acquisition projects that have unique requirements and are subject to
                                        frequent changes.

                                        We presented a summary of our observations and lessons learned in a
                                        report to the PBS Commissioner on December 11, 2002.

                                        In the response to our report, management stated it will use audit
                                        findings as a roadmap for developing the replacement solicitation. The
                                        Office of Realty Services has been working to establish new guidelines
                                        for program internal controls as well as developing the format for the
                                        new solicitation. PBS is also seeking from the General Accounting
                                        Office advice concerning whether there is a means to use “zero-dollar”
                                        contracting in a manner consistent with appropriation law (a favorable
                                        ruling will not fully resolve all concerns over their use).

                                        Other measures PBS is taking to improve the contract program include
                                        establishing teams to develop contractor performance measures,
                                        improve contract administration, and design a training program to
                                        teach brokerage personnel the detailed points of Federal leasing
                                        regulations.

                                        Construction Claims. In recent years, we have observed that
                                        construction projects have incurred more frequent and higher dollar
                                        value claims. This results in greater litigation and settlement costs,
                                        and significantly hinders the overall success of the construction


4 Semiannual Report to the Congress
                      Management Challenges




                      Management Controls (continued)

                        program. In one region, we examined three major projects each of
                        which had incurred major claims. This region had experienced over
                        $125 million in claims stemming from six of its more recent
Ineffective project
                        construction projects. Our purpose was to determine the underlying
 management and         causes and consider what actions might be taken in the future to either
  poor contractor       avoid or at least reduce the amount of claims incurred.
choice contributed      Our evaluation concluded that many claims could be avoided if PBS
 to $125 million in     officials were more careful in selecting the contractors for the specific
   construction         projects and if they used more effective project management
                        techniques to oversee the work.
   claims in one
      region.           In examining the contract award process, we found that PBS uses an
                        approach that evaluates prospective contractors’ proposals on the
                        basis of pricing and technical factors. While this approach is
                        conceptually sound, we found the technical criteria used were so
                        generic that they were of limited value in differentiating the most
                        qualified contractors from the others. Most significant was that the
                        criteria did not include a detailed assessment of the contractors’ past
                        performance on similar projects.

                        Selection of weaker contractors had subsequent adverse effects. In
                        our study, we saw evidence that some of the contractors manipulated
                        construction schedules or submitted none, overwhelmed the project
                        team with requests for information, inflated overhead costs, or did not
                        fully price change orders. PBS did not take corrective actions to
                        eliminate these conditions; thus, it incurred time delays and additional
                        unnecessary project costs. Compounding the bad contractor behavior
                        was that PBS did not always enforce contract clauses relative to
                        scheduling and payment procedures, and often neglected many of its
                        project oversight responsibilities. This only entices contractors to
                        conduct that leads to inflated claims for costs. Weak project
                        management also increases the risks that later on the contractor will
                        assert that delays and added expenses were caused by and should be
                        borne by the government.

                        In our November 12, 2002 report to the Regional Administrator, we
                        recommended that:

                        •    Source selection committees develop a broader range of detailed
                             questions for potential contractors.

                        •    PBS enforce contract clauses dealing with scheduling and
                             progress payments.



                                                                        Office of Inspector General 5
                                      Management Challenges




                                      Management Controls (continued)

                                        •    Project personnel document project files, be adequately
                                             supervised, and receive formal training on project and
                                             construction claims management.

                                        The Regional Administrator concurred with our observations and
                                        recommendations. He stated that management expects the rate of
                                        construction claims to decline due to changes and improvements
                                        already made in the Property Development Division. Based on this
                                        report, we are currently performing an expanded review of PBS’
                                        construction program across the nation.

                                        PBS Service Center Procurements. The Federal Acquisition
                                        Regulation (FAR) requires that contracting officials provide
                                        documentation in the file to show that each step of the acquisition
      Most of the                       process is complete. In response to a complaint made to the OIG’s
      $9 million of                     Hotline, we reviewed over $9 million of procurement actions, including
     procurement                        purchase card transactions, made by a regional PBS Service Center
                                        responsible for maintaining and operating GSA-controlled buildings in a
   actions reviewed                     geographic area. The majority of the contract files we examined
         lacked                         lacked documentation to demonstrate that prices were fair and
  documentation to                      reasonable and did not show why awards were based on other than
                                        full and open competition. In most files there was little evidence to
   demonstrate fair                     support the negotiation of the contract prices. We reviewed a sample
    and reasonable                      of purchase card transactions that had supporting documentation and
       pricing or                       found that cardholders did not obtain adequate competition on 64 out
                                        of 79 purchases that exceeded the micro-purchase limit. (See page 8
    justification for                   for additional detail on our purchase card findings.)
  other than full and
  open competition.                     During our review, we also identified four procurement actions that
                                        required ratification. In each case, the services or products had
                                        already been provided before a purchase order was prepared or
                                        funding approved. These actions ranged between $1,200 and
                                        $25,000.

                                        In our December 27, 2002 report, we recommended that the Regional
                                        Administrator develop adequate internal controls and internal review
                                        procedures, and ratify the four identified contracting actions in which
                                        products had already been provided without a purchase order or
                                        approved funding. The Regional Administrator agreed with our
                                        recommendations and submitted a draft action plan to address the
                                        issues.




6 Semiannual Report to the Congress
Management Challenges




Management Controls (continued)

  Good Neighbor Program. GSA started the Good Neighbor Program
  in 1996 as a community-based initiative to help revitalize downtown
  districts in major cities. PBS’ Business Development Division reached
  an agreement with a Downtown Improvement District in one major city
  for the acquisition of services from the Ambassador Force, a group that
  provides directions, information, and a visible, authoritative presence to
  downtown visitors, workers, and residents. A Memorandum of
  Agreement (MOA) established the scope of work, contract price, an
  implementation plan, inspection procedures, and termination
  provisions. FPS awarded the contract based on the MOA.

  The PBS Business Development staff negotiated the agreements with
  the Downtown Improvement District. However, no one on the staff is a
  warranted contracting officer. The FPS contracting officer who
  awarded the contract relied on a price analysis (that was flawed)
  prepared by a non-warranted employee to determine if the initial
  contract price was fair and reasonable. After several options were
  exercised, a new contract was awarded in 2002, bringing the total
  value for services to over $893,000. The contract file contained no
  documentation of negotiation — no contractor proposal, PBS price
  analysis, or Price Negotiation Memorandum — all specifically required
  by the FAR.

  We also observed that contract services are not being inspected nor is
  the use of services tracked. Therefore, FPS is unable to determine if
  the contract value is fair and reasonable or if services are performed
  as required.

  In our report to the Regional Administrator, we recommended that
  contracting officers: negotiate contracts at fair and reasonable prices
  with contract files documented accordingly, inspect contract services,
  and track the use of additional services.

  The Regional Administrator concurred with our recommendations and
  stated that responsibility for administering these contracts has been
  transferred from FPS to PBS.

Purchase Card Controls
A key concern of ours highlighted in previous semiannual reports and our
annual report on the major challenges facing GSA, is the continued
nonadherence to controls over the use of travel and purchase cards. Our
concerns have encompassed whether speedy procurement was being




                                                 Office of Inspector General 7
                                      Management Challenges




                                      Management Controls (continued)

                                      obtained at the expense of adherence to appropriate regulatory
                                      requirements and good internal controls, whether charge cards are being
                                      used solely for appropriate government purchases, and whether GSA is
                                      getting fair prices. In FY 2002, GSA employees used travel and purchase
                                      cards for $178 million of transactions. Our audits during this period have
                                      raised concerns regarding lack of oversight by approving officials, lack of
                                      documentation for transactions, and inappropriate transactions by
                                      purchase cardholders.

                                      For travel and purchase cards, GSA relies on the approving official as a
                                      primary point of control. Yet reviews in several locations show that
                                      approving officials do not always review transaction detail to assure
                                      cardholders comply with card usage and procurement guidelines. We
                                      identified situations where approving officials should have questioned the
                                      actions of the cardholders, such as where cardholders did not submit
                                      receipts or document certain purchases. We noted a variety of
                                      questionable purchases and inappropriate use of cards in several
                                      regions.

                                      Although the Chief Financial Officer has taken steps to inform users of
                                      the need for these controls, oversight weaknesses continue. While our
                                      several reviews this period mainly identified deficiencies that were either
                                      not individually significant or were isolated, our findings indicated that
                                      control issues still exist. We concluded that regional purchase card
                                      coordinators could play a larger oversight role by summarizing
                                      questionable procurements and periodically reminding cardholders and
                                      approving officials of what is acceptable activity.

                                      However, one review we completed this period did find significant
                                      deficiencies with procurement actions at a regional Service Center, as
   Undocumented or                    discussed earlier (page 6). At this center, undocumented or inadequately
     inadequately                     documented purchase card transactions exceeded $1 million. We
     documented                       concluded that there is limited assurance that card charges were for
                                      legitimate government purposes, were properly authorized, and that the
    purchase card                     procurements complied with applicable regulations, including price
     transactions                     reasonableness. At this location, cardholders were allowing non-
       exceeded                       authorized individuals, including career interns and contractor employees,
                                      to make purchases using the charge card. These unauthorized users
   $1 million at one                  were unable to provide the authorized cardholder with supporting
     PBS Service                      documentation for the purchases. Authorized cardholders advised us in
        Center.                       interviews that they were instructed by their program officials and
                                      managers to use the charge card for these purchases.




8 Semiannual Report to the Congress
Management Challenges




Management Controls (continued)

In our review of a sample of purchase card transactions that had
supporting documentation, we found that cardholders did not obtain
adequate competition on 64 out of 79 purchases that exceeded the
micro-purchase limit. In addition, we noticed an extensive use of
convenience checks, which carry a bank fee and a loss of rebates.
During the period we reviewed, the Service Center wrote
320 convenience checks that incurred over $17,000 in bank fees.

In our December 27, 2002 report, we recommended that the Regional
Administrator take immediate action to ensure that the Service Center
establishes adequate internal controls over procurements paid for by
purchase cards and by convenience checks, so that cardholders and
approving officials understand and fulfill their responsibilities in
accordance with applicable policies and procurement regulations.

The Regional Administrator agreed with the report recommendations. He
noted that despite the identified deficiencies, the Service Center had
performed exceptionally well, achieving high customer satisfaction marks
and contributing to the region’s high performance measure ratings,
despite difficult times and challenging events in the region.

Other Control Reviews
The OIG completed three other reviews during the period involving
secured item inventory, controls over the destruction of fleet service cards
and license plates for vehicles removed from the fleet, and administrative
practices in the Emergency Management Office.

• Security measures to control highly pilferable inventory at the Western
  Distribution Center in Stockton, California need to be improved. The
  Center stocks about 250 of these items valued at more than $3 million.
  Although these items are kept in a security cage to limit theft,
  management has not adequately controlled access to the area. We
  noted that unauthorized individuals were able to enter the secured area
  without signing in and that the gate alarm was ignored because it was
  frequently activated. We were also informed that warehouse
  supervisors, on occasion, temporarily assign workers to the security
  cage while awaiting a new assignment. While we did see evidence of
  apparent pilferage, the value of the missing items was not significant.
  Management’s response was positive and immediate. Since the
  Western Depot is moving to a new facility very soon, we recommended
  that tighter controls be established and in effect on the first day of
  operations at the new Depot.




                                                 Office of Inspector General 9
                                       Management Challenges




                                       Management Controls (continued)

                                       • At one Fleet Management Center responsible for 2,500 vehicles valued
                                         at $36 million, we determined that an annual inventory of vehicles had
                                         not been performed and the Center did not adequately control the
                                         destruction of fleet service cards and license plates for vehicles that
                                         were sold or removed from service. In addition, the Center did not
                                         maintain a purchase card transaction log or adequately review the Fuel
                                         Capacity/Quantity Purchased Mismatch Report, which could help
                                         identify fraudulent or questionable purchases. These controls are
                                         required to reduce the potential for errors or the misuse of government
                                         assets.

                                       • GSA’s Emergency Management Office is charged with developing and
                                         implementing emergency preparedness procedures, providing logistical
                                         and telecommunications support, and ensuring continuity of operations
                                         in the event of local, national, or international crises. Our review of the
                                         administrative practices in the Office revealed that employees split
                                         procurements to expedite transactions using the purchase card, and
                                         that one staff member was allowed to make office purchases using
                                         another employee’s purchase card. In addition, management did not
                                         properly control employees’ use of overtime and, in several instances,
                                         did not preapprove employees exceeding maximum per diem lodging
                                         rates while on official travel. We attributed these conditions to
                                         employees’ lack of working knowledge of applicable regulations. The
                                         Chief of Staff concurred with our recommendations. Corrective actions
                                         have been taken and controls have been put in place to prevent
                                         recurrence of the problems.

                                       Procurement Activities
                                       GSA provides Federal agencies with products and services valued in the
                                       billions of dollars, through various types of contracts. We conduct
                                       reviews of these activities to ensure that the taxpayers’ interests are
                                       protected.

                                       Improper Contracting Practices
                                       During an ongoing audit of the Federal Technology Service’s (FTS) Client
                                       Support Centers (CSC), our review found misuse of the Information
   FTS misused the                     Technology (IT) Fund and significant inappropriate contracting practices.
                                       FTS, using purchase orders citing the IT Fund, spent over $36 million
   IT Fund to build                    renovating United States Army facilities. The renovation work was
     and renovate                      extensive and amounted to over $1 million at a single site. The IT Fund
      buildings.                       was established to acquire computer services and related technologies.
                                       Since we consider our concerns significant, we issued an Alert Report to
                                       management for its immediate attention.



10 Semiannual Report to the Congress
                      Management Challenges




                      Procurement Activities (continued)

                      At one location, FTS used two 8(a) contracts for IT services to procure
                      architectural, engineering, and general construction services to actually
                      construct a modern one-story office building to house training course
                      development activities. The 5,000 square foot building was complete with
                      break rooms, showers, a conference room, private offices, and space for
                      25-30 employees. These two contracts provide for “non-complex
                      computer systems integration services,” with line items for professional IT
                      services such as computer systems analysts, programmers, and local
                      area network (LAN) technicians. In addition to the fundamental issue of
                      the misuse of IT fund contracts for construction services, the task orders
                      did not contain appropriate construction clauses, and thus the CSC has
                      been subject to claims for increased costs regarding Davis-Bacon Act
                      violations. In one instance, the CSC paid $161,776 to settle a claim that
                      was directly paid by GSA from the IT fund.

                      FTS also renovated a conference center in Eastern Europe using the IT
                      Fund. FTS officials accepted a proposal from a prime contractor that did
                      not provide detail for the substantial building renovation effort performed
                      at this facility. Rather than detailing the costs of subcontracting
                      architectural and construction work, the contractor proposed 10,000 hours
                      of “IT technician” time. We determined that an architect and general
                      contractor performed about $290,000 in renovations.

                      Our review also revealed numerous examples of inappropriate
                      contracting practices. Of particular concern were wholesale changes to a
                      task order’s scope without benefit of contract modification, and use of the
                      sole source provisions of the small business program. FTS officials also
                      improperly split procurements to ensure task orders stayed below the
                      $3 million sole source threshold.

                      We concluded that contracting practices in this CSC need improvement.
                      Given the preponderance of questionable directed procurements under
                      the sole source guidelines of the small business program, we believe the
                      CSC did not adequately compete these procurements. Although our
                      overall review is still in process, we issued an Alert Report and discussed
                      these issues with FTS officials who pledged immediate corrective action.
   The City Pair      Our final report, to be issued at a later time, will incorporate the findings
 Program saves        highlighted herein and include work in other regions.
$2 billion annually
                      FSS’ City Pair Program
  but additional
                      The Federal Supply Service’s (FSS) City Pair Program provides Federal
 savings may be       travelers discounted airfares between over 5,000 city pairs. The airfares
    attainable.       under this program average a 72 percent discount off comparable
                      unrestricted coach fares saving the Federal Government over $2 billion



                                                                       Office of Inspector General 11
                                       Management Challenges




                                       Procurement Activities (continued)

                                       annually. Contracts are competitively awarded based on the best overall
                                       value to the government. Prior to 2002, only unrestricted fares were
                                       offered, providing travelers with “last seat availability, walk up fares” at
                                       deeply discounted prices. In FY 2002, a capacity-controlled fare (dual
                                       fare) was offered in a test market that has now been expanded to
                                       2,400 markets. These fares are more restrictive but offer additional
                                       savings to travelers.

                                       While the City Pair Program has been a very successful program and is
                                       more economical on a global level than the private sector programs, we
                                       conducted a benchmarking study with travel officials from several state
                                       agencies and the private sector to identify potential opportunities for
                                       improvement. We noted that the private sector incorporates fixed fares
                                       and percentage discount fares in their programs whereas FSS uses only
                                       fixed fares. While the fixed fares shield the government from the volatility
                                       of the market, FSS loses the opportunity to benefit from the frequently
                                       offered, deeply discounted commercial fares. To protect itself, the private
                                       sector uses guaranteed (fixed) fares for its frequently traveled markets
                                       and percentage discounts for other fares.

                                       FSS is continually striving to improve the City Pair Program to get the
                                       best possible value for the Federal traveler. While FSS is obtaining below
                                       market fares, we believe FSS should implement best practices to assist in
                                       the evaluation of offers. By limiting the number of markets, evaluating
                                       offers using cost per mile, using discounts, and maximizing the use of
                                       dual fares, FSS could achieve additional savings.

                                       In our March 31, 2003 report, we recommended that the Commissioner,
                                       Federal Supply Service:

                                       • Consider additional methods, similar to those used in the private
                                         sector, to obtain airline services.

                                       • Educate travel management center contractors and Federal travelers
                                         on the benefits of the use of the dual fares.

                                       • Obtain complete, accurate, and timely information from the airlines,
                                         banks participating in GSA’s Travel Card Program, and travel
                                         management centers for analysis to further improve the program.

                                       In response to our report, the Commissioner stated that FSS would
                                       explore some of the concepts included in our report for inclusion in the
                                       Program. The review is still in the resolution process.




12 Semiannual Report to the Congress
                     Management Challenges




                     Procurement Activities (continued)

                     Consolidation of Distribution Centers
                     FSS operates GSA’s Customer Supply Program, through which Federal
                     Government customers can order from a selection of more than
 Operating costs     7,000 items. When ordering through this program, customers benefit
   are lower, but    from a streamlined procurement process and lower prices negotiated by
  shipping costs     FSS using its aggregate purchasing power. Through FSS’ commercially-
                     based, global-delivery network, its supply distribution system ships
and delivery times   millions of orders worldwide. Throughout the 1990s, however, this
have increased for   program experienced significant losses in revenue. FSS responded by
    FSS’ Stock       restructuring the program in early FY 2002, and consolidated its supply
                     operations by closing two distribution warehouses and the four forward
     Program.        supply points. The two remaining distribution centers are located in
                     Burlington, New Jersey and Stockton, California.

                     Our audit found that, due to the closure of some of the distribution
                     facilities, customer orders must be shipped longer distances than in
                     previous years. As a result, the shipment costs and delivery times for
                     orders are greater today than in FY 2001 and earlier. For example,
                     GSA’s shipment expenses to the central United States have increased by
                     nearly 90 percent in terms of cost-per-pound, which we estimate could be
                     an increase of approximately $1.2 million for one year. However, our
                     audit also found that overall cost savings resulting from consolidation will
                     offset these expenses.

                     Our March 18, 2003 report to the Commissioner, Federal Supply Service,
                     recommended that management:

                     • Consider tracking cost-per-pound for future management decisions on
                       shipping.

                     • Develop access to sufficient and reliable data for all delivery methods
                       that are necessary for future business decisions.

                     Management officials agreed with our recommendations in the report.
                     The audit is still in the resolution process.

                     Section 508 of the Rehabilitation Act
                     In 1998, Congress amended the Rehabilitation Act of 1973 and under
                     Section 508 of the Act, required Federal agencies to give disabled
                     employees and members of the public, access to information that is
                     comparable to the access available to those without disabilities. The law
                     applies when agencies develop, procure, maintain, or use electronic and
                     information technology (EIT).




                                                                     Office of Inspector General 13
                                       Management Challenges




                                       Procurement Activities (continued)

                                       GSA has taken considerable action to implement the requirements of
                                       Section 508. It has referenced 508 in procurement vehicles, provided
    GSA has made                       training for the Federal and contracting community, maintained the
  noteworthy effort                    governmentwide 508 Web site, promoted accessible Web sites, and
                                       issued internal guidance for Agency implementation of Section 508. Even
  to implement the                     with those actions, we identified some issues such as: EIT procurements
   requirements of                     that did not appropriately address Section 508, limited information on
     Section 508.                      accessible EIT products in GSA’s Web-based ordering system, and
                                       Agency Web sites with accessibility errors.

                                       The Agency recognizes that it can do more to meet the intent of 508.
                                       Recently, it expanded guidance, training, and Web site initiatives. When
                                       GSA acts as an ordering activity for other Federal agencies, it has the
                                       responsibility to ensure that clients have appropriately considered 508
                                       obligations. Since some programs have not developed national guidance
                                       for addressing 508 in task/delivery orders, regions approach 508
                                       differently, with some regions not addressing it at all. Agency-wide
                                       guidance and industry outreach, coupled with enhanced regional training,
                                       should improve 508 understanding and compliance.

                                       In our March 31, 2003 report we recommended that the Chief Information
                                       Officer (CIO) strengthen GSA’s commitment to implementing Section 508
                                       by:

                                       • Monitoring Service and Staff Office initiatives including training, internal
                                         procedures, and customer and industry outreach programs to assess
                                         their viability in supporting the intent of Section 508.

                                       • Incorporating Section 508 references in GSA waivers from a blanket
                                         purchase agreement for computer devices.

                                       The CIO generally concurred with our report findings and
                                       recommendations. The CIO has issued an instructional letter that
                                       identifies the roles and responsibilities of GSA’s Services and Staff Offices
                                       for incorporating EIT standards into their acquisition processes and
                                       automated systems. The report is still in the resolution process.

                                       Information Technology
                                       GSA is in the process of replacing a number of its old information
                                       systems in keeping with technological advances. Since GSA has had
                                       difficulty sharing usable data between systems, many of the new IT
                                       projects are designed to go beyond automating current business
                                       functions and create real change in the way that GSA does business.




14 Semiannual Report to the Congress
                     Management Challenges




                     Information Technology (continued)

                     However, development of new GSA systems has typically been
                     characterized by schedule delays and cost overruns, the need for
                     frequent redesign, and a prolonged period of time in development.

                     PBS’ Systems Development Center
                     PBS has encountered difficulties in developing and maintaining its IT
                     initiatives for many years. In an attempt to resolve the IT management
                     and systems development weaknesses, the Office of the PBS Chief
                     Information Officer (PBS CIO), in January 1999, introduced the Systems
                     Development Center (SDC) to address ongoing difficulties it was
                     experiencing in developing and managing its IT systems. Specific
                     challenges that the SDC was to address included: a lack of detailed
                     requirements definition and user involvement, staying within cost and
                     schedule budgets, and developing IT systems that effectively met both
                     user and Agency needs. PBS had intended to expand the SDC services
                     to the GSA Services and Staff Offices and the Regions if it achieved
                     success with initial IT projects.

   Forty million     Over a three-year period, PBS paid the SDC contractor over $40 million.
    dollars in       However, because the SDC had not consistently provided sound project
                     management, high quality projects, or consistent, repeatable, and
expenditures for     predictable project outcomes necessary to improve its system
 SDC operations      engineering process discipline and planning as expected, PBS did not
 did not result in   exercise its option to continue SDC operations.
improved PBS IT      In our review, we identified areas that need strengthening to ensure that
      project        lessons learned are adequately considered in analyzing alternatives for
  management.        replacing the SDC. We found that the blanket purchase agreement did
                     not identify performance measures, incentives for contractor performance,
                     or penalties for not meeting PBS’ IT requirements. The “best effort”
                     clause in the agreement did not ensure quality PBS products would be
                     delivered on time and within budget. In addition, the lack of performance
                     measures hindered PBS from taking actions to halt SDC operations
                     based on poor contractor performance.

                     We also found that due to insufficiently defined requirements used as
                     criteria for generating proposals, and the lack of criteria for reviewing
                     proposal estimates, the contractor's task order proposal estimates were
                     not always on target. Without a clear baseline to gauge estimates,
                     proposals for labor hours and skill categories in some cases were
                     overestimated.




                                                                     Office of Inspector General 15
                                       Management Challenges




                                       Information Technology (continued)

                                       High turnover in the PBS CIO and SDC program manager positions
                                       affected oversight of the SDC and caused inconsistent project scope and
                                       direction. In addition, roles identified for the SDC did not clearly establish
                                       accountability and responsibility for PBS projects or overall SDC
                                       operations. Communication problems on several levels also impacted the
                                       success of the SDC in that: 1) PBS’ requirements given to the SDC did
                                       not sufficiently detail the scope of work to be performed; 2) SDC officials
                                       did not consistently ask for clarification on requirements; and 3) the SDC
                                       prime contractor did not effectively coordinate with its subcontractors to
                                       involve staff with the relevant technical knowledge necessary to meet
                                       PBS’ needs.

                                       We recommended that the Public Buildings Service, Chief Information
                                       Officer:

                                       • Establish contracting methods for the SDC replacement based on clear
                                         performance measures and incentives.

                                       • Improve PBS’ internal IT requirements definition processes.

                                       • Modify use of independent verification and validation to include
                                         establishing reporting mechanisms to document and report on overall
                                         contractor performance and deliverables to ensure strategic goals are
                                         being met.

                                       • Consider a pilot approach as it assesses other vehicles and options for
                                         replacing the SDC.

                                       The CIO generally concurred with our report and responded that PBS has
                                       begun improvement efforts related to our findings. The audit is still in the
                                       resolution process.

                                       Controls for Privacy Act Data
                                       Information technology contractors and GSA employees are increasingly
      IT support                       relied upon and entrusted with access to Privacy Act data. However,
    contracts need                     these individuals may not understand the need to safeguard this
                                       information nor the potential damaging effect of unauthorized release of
     appropriate                       data. A rapidly growing category of crime, facilitated by use of the
    provisions for                     Internet to obtain personal information without the consent of the
      protecting                       individual, is identity theft. It is thus especially important that proper
                                       controls be in place for electronic files, particularly those containing
    sensitive data.                    sensitive personal information. As part of our assessment of security
                                       controls for GSA’s various IT systems, we identified concerns related to
                                       the Agency’s management of Privacy Act data. We determined that



16 Semiannual Report to the Congress
Management Challenges




Information Technology (continued)

current controls do not adequately address the risks in today’s automated
business environment and several areas need strengthening.

Online security training for GSA employees and IT service contractors
who work with sensitive files, did not include Privacy Act requirements or
restrictions on unauthorized disclosures of personal information. While IT
service contracts include general clauses that require compliance with
Federal law and government regulations, they do not state the need to
protect the data nor the restrictions or penalties for unauthorized
disclosures.

We also noted that GSA has not updated its list of Systems of Records,
required biennially by the Office of Management and Budget, to identify
systems that contain records about individuals. One of the several
systems not listed was the Agency’s personnel system, the
Comprehensive Human Resources Information System. Since the list
was last revised prior to 1997, the current list of system managers, who
are responsible for establishing safeguards to secure the confidentiality of
records and to protect against threats or hazards to the records’ security
or integrity, may not be current.

In our January 6, 2003 report, we recommended that:

• The Chief People Officer, with the assistance of the Chief Information
  Officer, work with the Office of Acquisition Policy to ensure that
  appropriate Privacy Act requirement clauses are included in IT support
  contracts and that roles and responsibilities for the protection of
  sensitive data are made explicit for contractors entrusted with such
  data.

• The Systems of Records list be updated and that accountability and
  responsibility be assigned for identifying and implementing specific
  controls for each of GSA’s Systems of Records.

The Chief People Officer agreed with our recommendations.

GSA Wide Area Backbone Network
The wide area backbone network (WABN) is a nationwide
telecommunications network that provides GSA with the ability to
communicate via the Internet and Intranet and transmit data necessary
for day-to-day operations. The Office of the Chief Information Officer
(OCIO) has centrally managed the network since 1996. The WABN will
cost GSA and other users $5 million in FY 2003.




                                                Office of Inspector General 17
                                       Management Challenges




                                       Information Technology (continued)

                                       In our review, we identified opportunities that would enhance the network
                                       operations. Because network costs are allocated based on personnel
                                       staffing for individual offices rather than on actual usage, there is little
                                       incentive for system developers to maximize bandwidth efficiency. We
                                       found that GSA’s Services and Staff Offices (SSO) have doubled
                                       bandwidth requirements over the last few years in implementing new
                                       systems or enhancing existing systems. We believe the OCIO should
                                       require pre-implementation testing of new systems by the SSOs in order
                                       to maximize the network’s performance, and enable the OCIO to better
                                       forecast future demand for bandwidth.

                                       A study conducted for the OCIO by the Daston Corporation in 2001
                                       concluded that GSA should evaluate the feasibility of using a commercial
                                       service provider for switching and related WABN services instead of
                                       performing them in-house. We believe that GSA should perform a cost-
                                       benefit analysis to determine the most economical and efficient method of
                                       providing these services.

                                       In response to the report, the Chief Information Officer stated that policy
                                       revisions will require system owners to work with and certify to the OCIO
                                       infrastructure management team that applications are properly designed
                                       to minimize the load on the network. The OCIO has also contracted with
                                       the Gartner Group to provide an analysis of alternatives for the delivery of
                                       internal GSA infrastructure services, including the WABN. This task is
                                       scheduled for completion in June 2003.




18 Semiannual Report to the Congress
                 Promoting and Protecting Integrity




                      GSA is responsible for providing working space for almost one million
                      Federal employees. The Agency also manages the transfer and disposal
                      of excess and surplus real and personal property and operates a
                      governmentwide service and supply system. To meet the needs of
                      customer agencies, GSA contracts for billions of dollars worth of
                      equipment, supplies, materials, and services each year. We conduct
                      reviews and investigations in all these areas to ensure the integrity of the
                      Agency’s financial statements, programs, and operations and that the
                      taxpayer’s interests are protected. In addition to detecting problems in
                      these GSA programs and operations, the OIG is responsible for initiating
                      actions to prevent fraud, waste, and abuse and to promote economy and
                      efficiency.

                      Significant Criminal and Civil Actions
                      Bribery Scheme Involving PBS Personnel
                      Based upon information developed during an investigation of corruption
                      within the PBS Property Management Center program, it was determined
                      that a GSA building management specialist was engaged in fraudulent
                      dealings with several GSA contractors.

                      The investigation disclosed that from 1994 to 1998, the specialist had
                      been soliciting and accepting bribes in exchange for awarding or
Bribery scheme        arranging the award of PBS repair and renovation contracts at various
  within PBS          GSA-owned facilities. The specialist awarded and/or arranged the award
                      of over $600,000 in GSA contracts in exchange for approximately
  uncovered.          $20,000 in cash and/or free construction services on his personal
                      residence, as well as various residential properties he owned for rental
                      income.

                      The investigation also revealed that the specialist had accepted bribes
                      from two GSA contractors and three subcontractors. The specialist pled
                      guilty to accepting bribes and resigned from his position with GSA on
                      June 28, 2002, and was subsequently suspended on January 14, 2003
                      from doing business with GSA. Sentencing has not been scheduled.

                      Of the two GSA contractors, one pled guilty to bribery and was sentenced
                      on January 14, 2003 to 36 months probation and ordered to pay
                      restitution of $2,850. In addition, the other contractor pled guilty to
                      gratuity charges and was sentenced on January 31, 2003 to 24 months
                      probation. The three subcontractors were arrested; subsequently, one
                      pled guilty to bribery and was sentenced to probation, ordered to pay
                      restitution, and suspended from doing business with GSA on January 30,
                      2003. Criminal disposition of the other two subcontractors is still pending.




                                                                      Office of Inspector General 19
                              Promoting and Protecting Integrity




                                       Telecommunications Fraud
                                       The OIG’s Office of Investigations continues to be a principal participant
                                       in the New York Electronic Crimes Task Force (NYECTF), which has
                                       been investigating telecommunications fraud primarily involving Federal
                                       facilities within the New York metropolitan area. GSA is the principal
                                       provider of telecommunications services for these facilities. NYECTF
                                       members include the Secret Service, Department of Defense, Department
                                       of Justice, New York City Police, and telecommunications industry
                                       representatives.

                                       The task force investigates several types of telecommunications fraud
                                       including stolen calling card numbers. Calling card numbers are stolen
                                       either through the use of electronic devices, which intercept the caller’s
                                       use of the number, or by “shoulder surfing” which is the simple act of
                                       watching someone dial in the card numbers. Access is often sold to other
                                       individuals who make telephone calls around the world until the misuse is
                                       detected.

                                       A recent fraud investigation disclosed that over 3,000 commercial and
                                       government calling cards were compromised when an individual stole
                                       calling card numbers from unsuspecting travelers who were placing
                                       telephone calls from public pay phone banks at four major airports.
                                       Following conviction for charge card fraud, on December 20, 2002, the
                                       individual was sentenced in U.S. District Court to 37 months
                                       incarceration, 36 months of supervised release, and was ordered to pay
                                       $985,000 in restitution.

                                       Supplier of Medical Technology Equipment Settles Civil Fraud Claim
                                       In an agreement negotiated by the U.S. Attorney’s Office in Boston, Nova
                                       Biomedical, Inc. (Nova) agreed to pay $69,500 to settle its potential civil
                                       False Claims Act liability. Nova manufactures sophisticated medical
                                       technology equipment. Tripler Army Medical Center in Honolulu, Hawaii
                                       purchased a number of blood analyzing machines from Nova under a
                                       GSA Multiple Award Schedule contract. When the machines were put
                                       into use, the Army found that a vital and degradable component of the
                                       machines failed at an unacceptably high rate. An investigation by the
                                       OIG and Army Criminal Investigations Division confirmed that the
                                       component only lasted two to three hours instead of the expected three to
                                       seven days.

                                       Senior Physician Settles Claim for Misuse of Government Charge
                                       Card
                                       In a case worked jointly by this office and the OIG, Department of
                                       Veteran’s Affairs (DVA), a senior physician with the DVA who misused a
                                       government charge card agreed to pay $20,000 to settle his potential civil
                                       False Claims Act liability. The investigation disclosed that charges of


20 Semiannual Report to the Congress
Promoting and Protecting Integrity




     $8,036 were made on the government card for goods that the physician
     purchased for his own use including bicycle racks, a table saw, and an air
     compressor.

     Fraudulent Sale of Auction Vehicles
     A joint investigation by the OIG and local law enforcement officials
     revealed that an individual had purchased approximately 30 vehicles
     used in U.S. Department of Transportation’s crash tests. The vehicles
     were purchased through GSA auction with the conditions that they would
     not be used on the highway, they could not be repaired, and subsequent
     buyers must be notified of crash test usage. The vehicles were to be
     used for salvage purposes only. The investigation also revealed that the
     individual advertised and sold these cars through an Internet auction site
     with clear title for highway use.

     On November 13, 2002, the individual pled guilty in Georgia State Court
     to fraud and was sentenced to five years probation, ordered to pay
     $65,623 in restitution to the victims in this case, and fined $6,500.

     Owner of Automobile Repair Shop Convicted for False Claims
     The OIG initiated an investigation when a GSA employee reported that
     the owner of an automobile repair shop was submitting suspicious
     invoices and an unusually large number of repairs. It appeared that the
     owner established multiple vendor account numbers with GSA and then
     forged the names of government officials authorizing and accepting work
     performed on government vehicles.

     The investigation showed that the owner used various vendor numbers
     and submitted invoices for unnecessary repairs and for services for which
     he had already received payment. Also, the owner submitted multiple
     invoices for the same service on the same vehicle and submitted invoices
     for services that were not rendered.

     Following conviction for submitting false claims to the government, on
     October 10, 2002 the owner was sentenced to 60 months probation,
     200 hours community service, and was ordered to pay $25,694 in
     restitution.

     Individual Convicted for Obstruction of Justice
     An investigation was initiated when an anonymous caller reported to our
     OIG field office that she had observed “suspicious activity” at a New York
     apartment subsequent to the September 11, 2001, terrorist attack on the
     World Trade Center. This call was then referred to the Federal Bureau of
     Investigation (FBI) Joint Terrorism Task Force (JTTF) and was accepted
     as a lead.



                                                    Office of Inspector General 21
                              Promoting and Protecting Integrity




                                       A joint investigation by the OIG and FBI JTTF determined that the
                                       information provided was not credible. The caller’s claims were
                                       completely false and made because of her dislike of the person.

                                       On January 29, 2003, the individual pled guilty pursuant to a plea
                                       agreement to obstruction of justice and was sentenced to one year
                                       probation, three months of confinement at a government designated
                                       confinement center, and three months of home detention. Additionally, as
                                       part of her sentence she was ordered to reimburse the government for
                                       the fees associated with her court appointed attorney, pay a $15,000 fine
                                       within 90 days, and perform 400 hours of community service.

                                       Fleet Charge Card Abuse
                                       An ongoing investigation of the misuse of GSA issued fleet charge cards
                                       resulted in the conviction and sentencing of one GSA employee and three
                                       other individuals during this reporting period.

                                       In the first instance, the investigation discovered that the GSA employee
                                       was using his fleet card to purchase gasoline for his personal car. On
                                       October 1, 2002, the GSA employee resigned from his position and on
                                       April 3, 2003, pursuant to a plea agreement pled guilty to theft of
                                       government property. He was sentenced to three years probation,
                                       100 hours of community service, and ordered to pay $8,300 in restitution.

                                       In the second instance, the investigation revealed that a former Amtrak
                                       employee was using a fleet card that had been assigned to vehicles
                                       leased to Amtrak to purchase gas for his personal car. On November 6,
                                       2002, the individual was convicted for charge card abuse and sentenced
                                       to two years supervised probation, ordered to pay restitution, and fined.

                                       In the third instance, a joint investigation by the OIG and local law
                                       enforcement determined that an individual used a fleet card for personal
                                       gain while employed at a car repair business. The business had a
                                       contract with GSA to perform general maintenance service on
                                       government vehicles. All work was to be paid by fleet card. The
                                       investigation disclosed that the individual used the fleet card for personal
                                       purchases. On February 21, 2003, pursuant to a plea agreement, the
                                       individual pled guilty to theft and was sentenced to two years
                                       incarceration with one year probation, and ordered to pay $2,106 in
                                       restitution.

                                       The last case involved investigating suspicious purchases made with a
                                       fleet card at a service station. Surveillance at a service station in
                                       Washington, D.C. disclosed that an individual was fueling his vehicle as
                                       well as other individuals’ personal vehicles with a GSA fleet charge card.
                                       The individual was an employee of St. Elizabeth’s Hospital and had



22 Semiannual Report to the Congress
Promoting and Protecting Integrity




     access to fleet cards. On December 2, 2002, in U.S. District Court, the
     individual entered into a pretrial diversion agreement and was ordered to
     pay restitution and perform community service.

     Two Individuals Convicted for Bribing Government Official
     An investigation was initiated when a Federal Technology Service official
     reported that a former sales representative for a GSA contractor had
     offered a bribe in exchange for the award of a contract. During the
     investigation, two individuals were observed paying the GSA official a
     $2,500 bribe and both were arrested. On October 8, 2002, the two
     individuals pled guilty in U.S. District Court to bribery and were sentenced
     to four months confinement and two years supervised probation.

     GSA Charge Card Fraud
     An investigation was initiated when a GSA employee reported a possible
     theft of her Government Citibank VISA IMPAC charge card. The
     investigation disclosed that an individual illegally obtained a GSA charge
     card and used it to pay her personal telephone bills, purchase airline
     tickets, and obtain prepaid gift cards from retail department stores totaling
     approximately $1,500.

     On October 23, 2002, the individual signed a plea agreement
     acknowledging unlawful use of a charge card. The plea agreement
     provided for a sentence of 24 months probation and 100 hours of
     community service.

     Unauthorized Use of NCIC System
     An investigation was initiated when the Federal Protective Service (FPS)
     reported that the Missouri State Highway Patrol (MSHP) advised them
     that an FPS employee had conducted a National Crime Information
     Center (NCIC) inquiry for unlawful purposes. Our investigation disclosed
     that the FPS employee used her Regional Justice Information System
     (REJIS) identification number and password to obtain criminal history
     reports on her son and another individual, who were both involved in a
     narcotics investigation by the MSHP.

     On January 13, 2003, the employee pled guilty in U.S. District Court to
     unauthorized access of criminal record information from the NCIC and
     agreed to resign from her position with GSA. On April 3, 2003, she was
     sentenced to 3 years probation.

     Integrity Awareness
     The OIG presents Integrity Awareness Briefings nationwide to educate
     GSA employees on their responsibilities for the prevention of fraud and
     abuse and to reinforce employees’ roles in helping to ensure the integrity
     of Agency operations.


                                                      Office of Inspector General 23
                              Promoting and Protecting Integrity




                                       This period, we presented 18 briefings attended by 349 regional
                                       employees. These briefings explain the statutory mission of the OIG and
                                       the methods available for reporting suspected instances of wrongdoing.
                                       In addition, through case studies, the briefings make GSA employees
                                       aware of actual instances of fraud in GSA and other Federal agencies
                                       and thus help to prevent their recurrence. GSA employees are the first
                                       line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-
                                       controlled buildings encourage employees to use the Hotline. We also
                                       developed and use our FraudNet Hotline platform to allow Internet
                                       reporting of suspected wrongdoing. During this reporting period, we
                                       received 917 Hotline reports. Of these, 168 complaints warranted further
                                       GSA action, 24 warranted other agency action, and 725 did not warrant
                                       action.

                                       Significant Preaward and Other Audits
                                       The OIG’s preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
   Preaward audit                      nature of preaward audits distinguishes them from other audits. This
   reports contain                     program provides vital and current information to contracting officers,
                                       enabling them to significantly improve the government’s negotiating
    $50 million in                     position and to realize millions of dollars in savings on negotiated
      financial                        contracts. This period, the OIG performed preaward audits of
 recommendations.                      54 contracts with an estimated value of $273 million. The audit reports
                                       contained $50 million in financial recommendations.

                                       We audited several claims for increased costs. Three of the more
                                       significant projects audited contained proposed amounts totaling
                                       $66.7 million, and our audits of the claims recommended adjustments of
                                       nearly $37 million. Our audits of the prime contractor and numerous
                                       subcontractors on one construction project found that the claimed
                                       amounts were either overstated or not supported by the companies’
                                       records. In our audits of a prime contractor’s and several subcontractors’
                                       claims for increased costs due to delays and disruptions allegedly caused
                                       by the government, we adjusted labor and other costs because the
                                       claimed amounts were not based on actual costs and included some
                                       costs not allowed by the contract. In another audit of a delay claim, we
                                       advised the contracting officer that the prime contractor and a
                                       subcontractor could not substantiate most of the costs they claimed.




24 Semiannual Report to the Congress
Promoting and Protecting Integrity




     Federal Managers’ Financial Integrity Act Review
     The Federal Managers’ Financial Integrity Act (FMFIA), Section 2,
     requires GSA management to provide assurance to the President and the
     Congress that Agency resources are protected from fraud, waste,
     mismanagement, and misappropriation.

     The Regional Administrators’ and Heads of Services and Staff Offices’
     assurance statements are used by the Management Control Oversight
     Council (MCOC) as a basis for developing the Administrator’s assurance
     statement.

     Each year, we review the Agency’s FMFIA process to assess the
     completeness of management’s reporting of known significant
     weaknesses and deficiencies. For FY 2002, the Regional Administrator,
     Region 4, and the Chief People Officer identified several areas of concern
     that dealt with: 1) protection of Federal facilities and personnel, including
     emergency management, and 2) management controls in areas such as
     administration of guard service contracts, procurement documentation,
     staffing and training of procurement personnel, data security, and data
     accuracy. Previous audit reports have raised similar concerns.

     The OIG has issued past FMFIA reports on control weaknesses over
     payments related to charge card purchases. Even though the Chief
     Financial Officer (CFO) has taken steps to inform users of established
     policies, we still found instances where charge card policies are not being
     followed. We reported cardholders not maintaining required logs and
     supporting receipts of purchases, inappropriate use of purchase cards for
     travel expenses, and improper payments of sales taxes. We also advised
     management that approving officials were not appropriately assigned to
     approve cardholders’ transactions.

     In FY 2002 we also issued an audit report that addressed control
     problems associated with the GSA Awards Program. We identified issues
     regarding competitive awards and compensation escalation, a lack of
     supporting documentation, inadequate award justification, and splitting of
     awards. The overuse of awards could diminish the motivational impact of
     the awards and was found to increase the amount of employees’
     compensation by as much as 12 to 35 percent.

     In our FMFIA report, we also highlighted two General Accounting Office
     reports that GSA’s MCOC should consider. The first report indicates that
     GSA schedule contract customers are being charged fees higher than
     necessary. GSA’s Federal Supply Service earned $56 million more than
     the expenses it incurred for FY 2001. Subsequently, GSA has proposed
     reducing the fee. The second report addressed the timely implementation




                                                     Office of Inspector General 25
                              Promoting and Protecting Integrity




                                       of the Metropolitan Area Acquisition Program. Although the contract
                                       implementation is progressing, in most metropolitan areas GSA remains
                                       behind schedule for completion.

                                       FMFIA, Section 4 relates to the CFO’s disclosure of nonconformances
                                       with Federal financial management system policies and standards. We
                                       determined that the CFO had completely and accurately disclosed
                                       nonconformances regarding both:

                                       • the need to improve entity-wide system security management and
                                         oversight, and

                                       • the need to improve system development, implementation, and change
                                         controls processes.

                                       We noted, however, that the Financial Management Systems Review
                                       Questionnaire could be improved by including OMB Circular A-127
                                       requirements for performing ongoing maintenance of financial systems,
                                       and providing adequate training and appropriate support to users of the
                                       financial management systems.

                                       Financial Statement Audit and Related Reviews
                                       With the passage of the Chief Financial Officers Act of 1990, the
                                       Congress through legislation, and the Office of Management and Budget
                                       (OMB), through management circulars and bulletins, have established a
                                       framework of financial audits and reviews designed to foster overall
                                       enhancement of the Federal Government’s financial management and
                                       reporting practices. Summarized below are the results of financial and
                                       financially-related reviews completed this period.

                                       Financial Statement Audit for FY 2002
                                       As in past years, this audit was performed by an independent public
                                       accounting firm, with oversight, support work, and guidance provided by
                                       the OIG. The firm identified four reportable conditions and no material
                                       weaknesses, as defined by established standards. The firm reported that
                                       improvements are needed as follows:

                                       • Network and application security controls need strengthening.

                                       • Change controls over financial applications need improvement.

                                       • Controls over the integrity of rent data need improvement.

                                       • Controls over transferring substantially complete construction-in-
                                         process projects need improvement.




26 Semiannual Report to the Congress
                      Promoting and Protecting Integrity




                           Testing Controls Over Performance Measures
                           The OIG conducted the portion of GSA’s FY 2002 Financial Statement
                           Audit related to internal controls over performance measures. For the
  CFO’s efforts            past two years, we identified a reportable condition regarding the need for
improve reliability        the CFO to verify and ensure the reliability of the data supporting the
                           performance measures. Last year, the CFO, through the Public Buildings
 of performance            Service, had made progress toward implementing a process to ensure
  measurement              Agency managers have sufficient controls over performance data. This
      data.                year, the CFO successfully tested the process in the Federal Supply
                           Service and recommended full implementation of the Performance
                           Management Tool to train managers on assuring data integrity. With
                           these improvements, we determined the reportable condition was
                           resolved.

                           Evaluation of Specific Performance Measures
                           The OIG also performed, as part of the financial statement audit process,
                           an assessment of internal controls over the existence and completeness
                           of data supporting individual performance measures.

                           Using the standards for these reviews established in OMB Bulletin
                           No. 01-02, we assessed the defined attributes in the Office of the Chief
                           People Officer, Office of the Chief Financial Officer, Federal Technology
                           Service, Federal Supply Service, Office of Small Business Utilization, and
                           Public Buildings Service (PBS). With the exception of PBS, we found
                           that there is a low risk that internal controls do not provide reasonable
                           assurance for the data supporting the performance measures. Internal
                           controls over the existence and completeness of the data supporting the
                           performance measures were also sufficient. In the case of PBS, we
                           believe there is a high risk relating to the completeness of data used to
                           calculate the non-revenue producing space performance measure
                           because of the likelihood of incomplete data residing in PBS’ System for
                           Tracking and Administering Real Property (STAR). While there are plans
                           to change the performance measure from tracking the percentage of non-
                           revenue producing space to measuring the dollar impact that unrented
                           space has on total revenue, we believe the results will continue to be
                           suspect until all building data is validated through the Spatial Data
                           Integrity Project, a physical re-measuring, classifying, and documenting of
                           the occupancy status for all space in GSA buildings.




                                                                          Office of Inspector General 27
                               Governmentwide Policy Activities




                                       We regularly provide advice and assistance on governmentwide policy
                                       matters to the Agency, as well as to other Federal agencies and to
                                       Committees of Congress. In addition, as required by the Inspector
                                       General Act of 1978, we review existing and proposed legislation and
                                       regulations to determine their effect on the economy and efficiency of the
                                       Agency’s programs and operations and on the prevention and detection
                                       of fraud and mismanagement. Because of the central management role
                                       of the Agency in shaping governmentwide policies and programs, most of
                                       the legislation and regulations reviewed invariably impact
                                       governmentwide issues in areas such as procurement, property
                                       management, travel, and government management and information
                                       technology systems.

Interagency                            This period, we participated on a number of interagency committees and
                                       working groups that deal with cross-cutting and governmentwide issues:
Committees and
Working Groups                         • The Inspector General (IG) serves on the Human Resources and
                                         Legislation committees of the President’s Council on Integrity and
                                         Efficiency (PCIE). The PCIE was established by Executive Order to
                                         address governmentwide integrity, economy, and efficiency issues.

                                       • The IG became Editor-in-Chief of The Journal of Public Inquiry, a
                                         semiannual publication of the Federal IG community. The Fall/Winter
                                         issue included articles from the Office of Management and Budget
                                         (OMB) on the President’s Management Agenda, reflections from
                                         several IGs on the historical legacy of the IG community, and technical
                                         articles on financial reporting and erroneous payments.

                                       • The OIG staff met with representatives of the Japanese Fair Trade
                                         Commission and the U.S. Department of Justice to discuss issues
                                         related to competition in contracting. The OIG provided information
                                         regarding competition in sealed bid and negotiated contracts —
                                         particularly construction contracts — debarment procedures, and bid
                                         rigging in Federal contracts.

                                       • The Assistant Inspector General (AIG) for Investigations serves as the
                                         Chair of the Assistant Inspectors General for Investigations
                                         Subcommittee of the PCIE. The subcommittee deals with investigative
                                         issues that affect all OIG Offices of Investigations, such as
                                         implementation of the new statutory law enforcement authority, peer
                                         review, and providing coordinated assistance to the Department of
                                         Justice.

                                       • The Counsel to the Inspector General has been participating on a
                                         working group sponsored by the Office of Federal Procurement Policy,
                                         part of OMB. At the request of the President to OMB, the working
                                         group is reviewing agency competition practices and how effectively
                                         they ensure access to government contracts.
28 Semiannual Report to the Congress
                  Governmentwide Policy Activities




                      • The AIG for Auditing represents all civilian government agencies on the
                        Cost Accounting Standards Board, an independent board within the
                        Office of Federal Procurement Policy, which promulgates, amends, and
                        revises Cost Accounting Standards designed to achieve uniformity and
                        consistency in cost accounting practices of individual government
                        contractors.

                      • Our TeamMate Technical Support Group participates in the TeamMate
                        Federal Users Group and the PricewaterhouseCoopers TeamMate
                        Users Group to discuss concerns and new challenges facing
                        TeamMate users. TeamMate is an automated audit paperwork
                        management system designed to make the audit process more
                        efficient.

                      • OIG audit representatives participate in the PCIE IT Roundtable to
                        address specialized security training and overall IT security issues
                        based on IT audits information security reviews.

                      • The Office of Audits Special Assistant to the AIG for Auditing represents
                        GSA on the White House Commission on the National Moment of
                        Remembrance. The Commission was established to enhance the
                        legacy of Memorial Day as a day to honor those who have sacrificed
                        their lives for the principles of freedom and liberty. Major initiatives
                        include placing commemorative posters in Federal buildings;
                        highlighting Commission activities on Federal, state, and local
                        government Web sites; and seeking the participation of Federal
                        employees, retirees, and benefit recipients.

                      • In 2002, GSA’s Office of Governmentwide Policy convened a
                        Governmentwide Per Diem Advisory Board composed of industry travel
                        experts as well as public and private sector travel managers. The
                        Board reviewed the process and methodology used to establish the
                        Federal Per Diem rates and will present recommendations for
                        improvements to the process. The OIG has been providing advice to
                        the per diem rate-setting subcommittee. A second subcommittee will
                        present recommendations for a nationwide government-lodging
                        program. A report consolidating the recommendations of both
                        subcommittees will be issued shortly.

Legislation and       During this reporting period, the OIG reviewed 121 legislative matters and
                      31 proposed regulations and directives. The OIG specifically commented
Regulations           on the following proposed regulations:

                      • Draft OMB Guidance Implementing Recovery Audits. We provided
                        comments to OMB and GSA’s Office of Congressional Affairs




                                                                     Office of Inspector General 29
                               Governmentwide Policy Activities




                                         concerning OMB’s proposed guidance on implementing the recovery
                                         audit provisions of the FY 2002 Defense Authorization Act. Specifically,
                                         we recommended that the guidance be modified to require that outside
                                         auditors notify agency OIGs when, in the course of their recovery
                                         audits, they find information indicating fraud or criminal activity. In
                                         addition, we also suggested that the guidance require outside auditors
                                         to report overpayments beyond the contract's scope or impacting
                                         another agency.

                                       • FAR Proposed Rule to Eliminate Comptroller General Audit Authority
                                         on Commercially Available Off-the-Shelf-Items. We provided
                                         comments to the Federal Acquisition Regulation (FAR) Council
                                         opposing elimination of a provision that affords the Comptroller General
                                         routine contractual audit authority on commercially available off-the-
                                         shelf-items (COTS). These COTS items are a subset of commercial
                                         items, and constitute a significant part of what is available under GSA’s
                                         Multiple Awards Schedule (MAS) program. We noted that, as to GSA’s
                                         MAS program, agency-specific general audit authorities and Truth In
                                         Negotiations Act audit authorities have been severely limited in scope
                                         or eliminated, and that the Comptroller General’s authority is the last
                                         remaining general audit authority as to COTS items. We stated that
                                         preserving this authority was in the government’s best interests, and
                                         that legislative history exists which supports the view that Congress, in
                                         enacting acquisition reform measures which eliminated certain of these
                                         audit authorities, intended that the Comptroller General’s authority
                                         remain applicable.

                                       • FSS Proposal to Conduct an Electronic Modification Pilot Program. The
                                         Federal Supply Service (FSS) asked us to provide input on a proposal
                                         to conduct a pilot program involving electronically submitted
                                         modifications to add upgraded or enhanced IT products under MAS
                                         contracts. We responded that the government is moving inevitably
                                         towards electronic processes, and that our concerns lay in the area of
                                         implementing such processes thoughtfully and with appropriate
                                         safeguards. We also noted several specific concerns regarding the
                                         proposal. First, we commented that vendors, when unilaterally
                                         submitting modification information, should be required to submit
                                         certain additional pricing related information to better allow contracting
                                         officers to determine that the modification is appropriate. We also
                                         suggested that FSS, in developing the pilot, should keep in mind the
                                         need to implement adequate IT security controls regarding
                                         authentication, nonrepudiation, and the integrity of submitted
                                         modifications. We also noted the importance of establishing an archive
                                         and preserving an audit trail as to submitted modifications.




30 Semiannual Report to the Congress
Governmentwide Policy Activities




     • Comments on OGC Draft Guidance Relating to Gifts and Conferences.
       The OIG commented on draft guidance by the Office of General
       Counsel (OGC) relating to the conduct of conferences and the
       acceptance by Agency employees of gifts from “prohibited sources.”
       Our comments, while generally supportive, recommended that OGC
       present this guidance in a way that would more fully integrate the
       concepts presented so as to highlight the major issues and potential
       problems raised by the expenditure of Federal funds on conferences
       and the participation of non-Federal entities in the planning and
       sponsorship of conference events. Specifically, we recommended that
       the comments clarify that the conduct of conferences and expos with
       non-Federal entities may present two distinct and potentially serious
       issues: 1) an ethics issue relating to the acceptance of food,
       entertainment and other items of monetary value from “prohibited
       sources,” which may give rise to actual conflicts of interest or the
       “appearance of impropriety,” and 2) an appropriations issue regarding
       either augmentation of the Agency’s appropriations by outside sources
       or impermissible expenditures by the Agency itself. We also suggested
       that clear guidance be provided relating to conferences and events that
       are planned and managed for the Agency by a contractor.

    • Implementation of Multiple Award Schedule Industrial Funding Fee
      Rate Reduction. Our comments to FSS mainly concerned its proposal
      to compensate vendors for their costs associated with reducing the
      industrial funding fee (IFF) from 1 percent to .75 percent. We noted
      that, although the FSS business case included an analysis of GSA’s
      costs in modifying the contracts for the rate reduction, no analysis was
      provided of any costs the vendors may face. We pointed out that FSS
      was proposing to pay the vendors an amount it had not yet determined
      to be the appropriate sum. We further commented that the FSS
      business case did not indicate that vendors expected compensation or
      would submit a claim for compensation for implementing this change.
      In light of this lack of information, we found FSS had not justified its
      proposal for compensation.

    • Comments on Proposed GSA Order “Protecting Sensitive but
      Unclassified Information.” The OIG also provided comments to the
      proposed GSA Order titled “Protecting Sensitive but Unclassified
      Information.” The draft order expressed the need for Agency officials
      to carefully control the dissemination of information that might
      compromise either the physical security of Federal buildings and
      employees or the operational infrastructure of Federal agencies. While
      mainly supportive of the draft order’s intent and objectives, our
      comments were largely centered on that part of the proposed order
      which charged information management officials (e.g., legal counsel




                                                   Office of Inspector General 31
                               Governmentwide Policy Activities




                                         and Freedom of Information Act (FOIA) officers) with reviewing
                                         proposals to determine the enforceability of the proposed restrictions
                                         on disclosure of sensitive information and coordinating administrative
                                         requirements necessary to implement approved restrictions.
                                         Specifically, we expressed our concern that there was an apparent
                                         disconnect between this proposed internal decision-making process
                                         and the fact that the FOIA statute itself has not been amended. We
                                         questioned how the Agency (or even operational components within
                                         the Agency) could determine on its own that additional, more far-
                                         reaching restrictions would be placed on information that the FOIA
                                         does not exempt from the general disclosure requirements. We
                                         suggested that, rather than focusing on “changes to FOIA policy” that
                                         might be inconsistent with the requirements of the statute, the
                                         emphasis should be on the defensibility of any proposed additional
                                         restrictions on the disclosure of information, and that this type of
                                         analysis would be better done in coordination with the Department of
                                         Justice, rather than on an agency-by-agency or office-by-office basis.

                                       • GSA Information Technology (IT) General Rules of Behavior. We
                                         commented on a draft order from the Office of Chief Information Officer
                                         concerning the appropriate use of GSA IT resources. We
                                         recommended several technical corrections and noted that the OIG’s
                                         network safeguards are, in several cases, more stringent than GSA’s.

                                       • GSA Electronic Messaging Policy. We provided several comments
                                         concerning proposed revisions to GSA’s electronic mail use and
                                         archiving policy. Among other suggestions, we asked GSA to
                                         incorporate language directing its employees, and others with access
                                         to the system, to report policy violations and any illegal activity to the
                                         OIG.

                                       • GSA Order – Managing Electronic and Information Technology for
                                         People with Disabilities. In commenting on GSA’s draft order
                                         implementing the Amendments to Section 508 of the Rehabilitation Act
                                         of 1973, we made a number of suggestions as to how the order should
                                         be refined to address practical contracting issues and suggested “plain
                                         language” definitions of terms used in the order.

                                       • GSA Order – Managing Electronic Records. We made a number of
                                         recommendations for ways in which the draft order could be improved,
                                         including clarification about the media and systems to which the order
                                         applies, and a stronger statement about the policy and procedures for
                                         handling sensitive proprietary and Privacy Act protected information.




32 Semiannual Report to the Congress
Professional Assistance Services




    The General Accounting Office recently issued a revision to the
    independence standard contained in the Government Auditing Standards.
    This amendment prohibits Federal audit organizations from performing
    certain types of management consulting projects because they may
    impair the independence of the auditors when performing subsequent
    audit work in the same area. Although we have always maintained our
    independence when working closely with GSA management, we are no
    longer performing consulting assignments and are carefully assessing our
    services to meet the new standard. As allowed under the new standard,
    we are continuing our participation on Agency improvement task forces,
    committees, and working groups, in an observer or advisory capacity.

    Task Forces, Committees, and Working Groups. The OIG provides
    advice and counsel to GSA while monitoring ongoing Agency initiatives.
    Our representatives advise management at the earliest possible
    opportunity of potential problems, help ensure that appropriate
    management controls are provided when installing new or modifying
    existing Agency systems, and offer possible solutions when addressing
    complex financial issues.

    Our direct participation with the Agency on task forces, committees, and
    working groups allows us to contribute our expertise and advice, while
    improving our own familiarity with the Agency’s rapidly changing systems.
    We also benefit by expanding our new initiatives within the Federal
    community. We nevertheless maintain our ability to independently audit
    and review programs. Our participation on the task forces is typically as
    a non-voting advisory member. We maintain a strict policy of excluding
    staff members who have served on developmental task forces from
    subsequent audits of the same subject areas.

    Some areas in which we have been involved this period include:

    • Single Audit Activities. The Single Audit Act established uniform
      audit requirements for state and local governments receiving Federal
      awards. The non-Federal entities that receive Federal awards under
      more than one Federal program are required to undergo a single audit.
      Each Federal agency monitors the non-Federal entity’s use of awards
      provided by the Agency, and assesses the quality of the audits
      conducted relative to its program. The OIG monitors these activities as
      they relate to the personal property disposal program.

    • The Information Technology (IT) Council. The Council monitors
      policies and programs to ensure IT consistency throughout the Agency.
      It is comprised of the Chief Information Officers of the various GSA
      Services and Staff Offices. Representatives of our office participate in
      meetings at the request of the Agency on such matters as systems
      controls, architecture, security, or new legislative requirements.


                                                   Office of Inspector General 33
                               Professional Assistance Services




                                       • Federal Supply Service (FSS) Working Group. FSS has convened
                                         a working group to address certain negotiations and audit issues that
                                         were the subject of an OIG special report on Multiple Award Schedule
                                         pricing practices. The OIG is providing advice and assistance to FSS
                                         in its issuance of guidance to contracting officers and development of
                                         training initiatives on these issues.




34 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments




                                Audit Reports Issued
                                The OIG issued 98 audit reports during this reporting period. The reports
                                contained financial recommendations totaling $50,127,715, including
                                $50,031,225 in recommendations that funds be put to better use and
                                $96,490 in questioned costs. Due to GSA’s mission of negotiating
                                contracts for governmentwide supplies and services, most of the savings
                                from recommendations that funds be put to better use would be
                                applicable to other Federal agencies.

                                Management Decisions on Audit Reports
                                Table 1 summarizes the status of the universe of audits requiring
                                management decisions during this period, as well as the status of those
                                audits as of March 31, 2003. Table 1 does not include 4 reports issued to
                                other agencies this period. Table 1 also does not include 6 reports
                                excluded from the management decision process because they pertain to
                                ongoing investigations.



                 Table 1. Management Decisions on OIG Audits
                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 10/1/02
  Less than six months old                          48                  34               $ 56,628,377
  Six or more months old                             2                   1                    203,343
Reports issued this period                          94                  51                 50,127,715
TOTAL                                              144                  86               $106,959,435
For which a management decision
was made during the reporting period
  Issued prior periods                              45                  33               $ 56,583,911
  Issued current period                             54                  24                 36,977,187
TOTAL                                               99                  57               $ 93,561,098
For which no management decision
had been made as of 3/31/03
  Less than six months old                          40                  27               $ 13,150,528
  Six or more months old                             5                   2                    247,809
TOTAL                                               45                  29               $ 13,398,337




                                                                              Office of Inspector General 35
                      Statistical Summary of OIG Accomplishments




                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing
                                       financial recommendations by category (funds to be put to better use or
                                       questioned costs).




                    Table 2. Management Decisions on OIG Audits with
                    Recommendations that Funds be Put to Better Use

                                                               No. of                     Financial
                                                              Reports                 Recommendations

       For which no management decision had
       been made as of 10/1/02
         Less than six months old                                31                    $ 56,299,001
         Six or more months old                                   1                         203,343
       Reports issued this period                                49                      50,031,225
       TOTAL                                                     81                    $106,533,569
       For which a management decision was
       made during the reporting period
         Recommendations agreed to by
         management based on proposed
         •management action                                      —                     $ 92,286,286
         •legislative action                                     —                               —
         Recommendations not agreed to
         by management                                           —                         987,633
       TOTAL                                                     54                    $ 93,273,919
       For which no management decision had
       been made as of 3/31/03
         Less than six months old                                26                    $ 13,056,307
         Six or more months old                                   1                         203,343
       TOTAL                                                     27                    $ 13,259,650




36 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




           Table 3. Management Decisions on OIG Audits
                      with Questioned Costs

                                    No. of               Questioned
                                   Reports                 Costs

For which no management decision
had been made as of 10/1/02
  Less than six months old             3                 $329,376
  Six or more months old               0                        0
Reports issued this period             2                   96,490
TOTAL                                  5                 $425,866
For which a management decision
was made during the reporting
period
  Disallowed costs                    —                  $287,179
  Costs not disallowed                —                         0
TOTAL                                  3                 $287,179
For which no management decision
had been made as of 3/31/03
  Less than six months old             1                 $ 94,221
  Six or more months old               1                   44,466
TOTAL                                  2                 $138,687




                                                   Office of Inspector General 37
                       Statistical Summary of OIG Accomplishments




                                       Investigative Workload
                                       The OIG opened 101 investigative cases and closed 99 cases during this
                                       period. In addition, the OIG received and evaluated 58 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA
                                       officials on certain cases disclosing wrongdoing on the part of GSA
                                       employees, contractors, or private individuals doing business with the
                                       government.

                                Table 4. Summary of OIG Referrals

            Type of Referral                          Cases                                Subjects
            Criminal                                     35                                    45
            Civil                                        11                                    23
            Administrative                               83                                   150
            TOTAL                                      129                                    218


                                       In addition, the OIG made 14 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 20 cases (30 subjects) were accepted
                                       for criminal prosecution and 10 cases (22 subjects) were accepted for
                                       civil litigation. Criminal cases originating from OIG referrals resulted in
                                       22 indictments/informations and 19 successful prosecutions. OIG civil
                                       referrals resulted in 2 case settlements. Based on OIG administrative
                                       referrals, management debarred 45 contractors/individuals, suspended
                                       21 contractors/individuals, and took 21 personnel actions against
                                       employees.




38 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments




                            Monetary Results
                            Table 5 presents the amounts of fines, penalties, settlements, judgments,
                            and restitutions payable to the U.S. Government as a result of criminal
                            and civil actions arising from OIG referrals.


                   Table 5. Criminal and Civil Recoveries
                                                 Criminal                         Civil

Fines and Penalties                          $     39,375                     $      —

Settlements and Judgments                              —                       89,500

Restitutions                                     8,744,938                           —

TOTAL                                         $8,784,313                      $89,500



                            Table 6 presents the amount of administrative recoveries, recovered
                            property, savings as a result of investigative activities, and direct audit
                            recoveries.


                        Table 6. Other Monetary Results
Administrative Recoveries                        $189,909

Recovered Property                                250,000

Investigative Savings                              27,367

Audit Recoveries                                  120,000

TOTAL                                            $587,276




                                                                              Office of Inspector General 39
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                   during the RWA work process.         It is scheduled for
process, the GSA Office of the Chief Financial Officer,      completion on June 15, 2003.
Office of the Controller, is responsible for tracking the
implementation of audit recommendations after a              FEDdesk’s Online Services
management decision has been reached. That office            Period First Reported: April 1, 2002 to September 30, 2002
furnished the following status information.
                                                             The review examined FEDdesk’s online services. The
Twelve audits highlighted in prior reports to the            report contained six recommendations; three have
Congress have not yet been fully implemented; all are        been implemented.
being implemented in accordance with currently
established milestones.                                      The remaining recommendations involve completing a
                                                             risk assessment, performing a review to determine if
Procurements by a Regional Service                           user expectations are being met, and providing
Center                                                       continuity of services by providing hardware changes
Period First Reported: April 1, 2002 to September 30, 2002   and protecting sensitive data. They are scheduled for
                                                             completion between May 15, 2003 and January 15,
The review examined file documentation of the                2004.
acquisition process. The report contained six recom-
mendations; five have been implemented.                      Securing GSA’s E-Mail System
The remaining recommendation involves evaluating             Period First Reported: April 1, 2002 to September 30, 2002
wireless communication requirements, determining the         The review examined GSA’s electronic mail system
most cost-effective procurement method, and                  security. The report contained six recommendations;
establishing procedures to monitor charges. It is            two have been implemented.
scheduled for completion on July 15, 2003.
                                                             The remaining recommendations involve conducting
Regional Administration of Guard                             background investigations on contractor personnel,
Service Contracts                                            deleting e-mail access for terminated contractors,
Period First Reported: April 1, 2002 to September 30, 2002   requiring password aging, and assessing user
The Federal Protective Service (FPS) was transferred         requirements for secure comminications with third
on March 1, 2003 to the Department of Homeland               parties. The Audit Followup and Evaluation Branch is
Security (DHS), and DHS is now responsible for FPS           awaiting a memo from the Office of the Chief
audits and resolution.                                       Information Officer containing the revised completion
                                                             dates for two of the recommendations; the response to
Billing and Payment Systems                                  this memo is overdue. The other two recommenda-
Period First Reported: April 1, 2002 to September 30, 2002
                                                             tions    are     scheduled    for    completion    on
                                                             May 15, 2003.
The review examined controls over reimbursable work
authorizations (RWA) billings between GSA and other          Use of the Occupancy Agreement
Federal agencies.      The report contained two              Period First Reported: October 1, 2001 to March 31, 2002
recommendations; one has been implemented.
                                                             The review examined rent billing records covered
The remaining recommendation involves incorporating          by Occupancy Agreements (OA). The report contained
estimated cost data for planning workflow before and         six recommendations; one has been implemented.




                                                                                          Office of Inspector General 43
                   Appendix I–Significant Audits from Prior Reports




The remaining recommendations involve establishing           The remaining recommendation involves identifying
and supporting the OA, considering an electronic             the responsibility for maintenance programs to
signature requirement, measuring the time an OA              contractors. It is scheduled for completion on
remains in draft status, tracking the variance between       October 15, 2003.
OA projected rent and the actual billed rent, and
including enough information on the OA to identify the       Contract Security Guard Program
space assigned. They are scheduled for completion on         Period First Reported: October 1, 1999 to March 31, 2000
January 15, 2004.
                                                             The Federal Protective Service (FPS) was transferred
                                                             on March 1, 2003 to the Department of Homeland
The Federal Security Risk Manager                            Security (DHS), and DHS is now responsible for FPS
Program                                                      audits and resolution.
Period First Reported: October 1, 2001 to March 31, 2002
The Federal Protective Service (FPS) was transferred         Real Property Management
on March 1, 2003 to the Department of Homeland               Information System
Security (DHS), and DHS is now responsible for FPS           Period First Reported: October 1, 1999 to March 31, 2000
audits and resolution.                                       The review evaluated the System for Tracking
                                                             and Administering Real Property (STAR). The report
Electronic Commerce Systems                                  contained four recommendations; one has been
Security                                                     implemented.
Period First Reported: April 1, 2001 to September 30, 2001
                                                             The remaining recommendations include identifying
The review examined nine selected electronic                 capabilities needed in STAR, developing a
commerce systems. The report contained four                  project plan, and establishing a project management
recommendations; three have been implemented.                team.      They are scheduled for completion
                                                             between July 15, 2003 and October 15, 2003.
The remaining recommendation involves establishing a
process for reviewing system security requirements. It       Security Standards for New Buildings
is scheduled for completion on August 15, 2003.              Period First Reported: October 1, 1998 to March 31, 1999

Operating Equipment Inventories                              The Federal Protective Service (FPS) was transferred
Period First Reported: October 1, 2000 to March 31, 2001
                                                             on March 1, 2003 to the Department of Homeland
                                                             Security (DHS), and DHS is now responsible for FPS
The review focused on equipment maintenance                  audits and resolution.
maintained by contractors. The report contained two
recommendations; one has been implemented.




44 Semiannual Report to the Congress
                           Appendix II–Audit Report Register

                                                                                  Financial
                                                                              Recommendations
                                                                          Funds to        Questioned
Date of      Audit                                                       Be Put To      (Unsupported)
Report       Number                  Title                               Better Use         Costs


(Note: Because some audits pertain to contract award or actions that
have not yet been completed, the financial recommendations to these
reports are not listed in this Appendix.)

PBS Internal Audits
10/31/02      A020043       The Systems Development Center Has
                            Not Successfully Met PBS Project
                            Management Goals

11/12/02      A020055       Audit of the Southeast Sunbelt Region
                            Buildings Service’s Administration of
                            Construction Projects in Regard to Claims

12/11/02      A020135       Review of PBS’ Use of Brokerage
                            Contracts for Lease Acquisition Services

12/27/02      A020034       Review of Procurements Made by the
                            Colorado Service Center

02/19/03      A020257       Audit of Southeast Sunbelt Region Federal
                            Protective Service’s Administration of the
                            Ambassador Force Contract

03/06/03      A020216       Report on FY 2002 Percentage of Non-
                            Revenue Producing Space in Government
                            Owned Facilities Managed by GSA

03/13/03      A020260       Report on Region        2’s   Commercial
                            Outlease Program

03/21/03      A000939       Audit of Credit Card Usage by Public
                            Buildings Service Property Management
                            Centers

03/27/03      A030035       Review of Controls Over Purchase Card
                            Program for the Greater Southwest
                            Region, Public Buildings Service

PBS Contract Audits
10/02/02      A020200       Audit of Termination Claim: Herman B.
                            Taylor Construction Company, Contract
                            Number GS-07P-92-HUC-017




                                                                              Office of Inspector General 45
                               Appendix II–Audit Report Register

                                                                                          Financial
                                                                                      Recommendations
                                                                                  Funds to        Questioned
Date of        Audit                                                             Be Put To      (Unsupported)
Report         Number                     Title                                  Better Use         Costs


10/03/02        A020226         Preaward Audit of Supplemental Architect
                                and Engineering Services Contract: F & G
                                Engineers, Inc., Solicitation Number
                                GS05P02GAD0091

10/17/02        A020219         Preaward Audit of Cost and Pricing Data:
                                The Workers Corporation, Solicitation
                                Number GS-02P-02-PIC-0032

10/17/02        A020186         Preaward Audit of Architect and Engineering
                                Services Contract: HNTB Engineering &
                                Architecture, P.C., Consultant to Smith-Miller
                                & Hawkinson Architects, LLP, Contract
                                Number GS-02P-02-DTC-0012

10/17/02        A020228         Preaward Audit of Architect and Engineering
                                Services Contract: Leo A. Daly/LAN +
                                PageSoutherlandPage, Contract Number
                                GS-07P-00-URC-0002

10/22/02        A020221         Audit of Claim for Increased Costs: G-A
                                Masonry Corporation, Subcontractor to Clark
                                Construction Group, Inc., Contract Number
                                GS-04P-97-EXC-0015

10/24/02        A020227         Audit of Request for Equitable Adjustment:
                                Southern Pan Services Company, Contract
                                Number GS-04P-97-EXC-0015

10/29/02        A020202         Preaward Audit of a Claim: Juba Aluminum
                                Products Company, Inc., Subcontractor to
                                Clark Construction Group, Inc., Contract
                                Number GS-04P-97-EXC-0015

11/08/02        A030004         Preaward Audit of Architect and Engineering
                                Services Contract:       Koetter, Kim &
                                Associates,   Inc.,    Contract    Number
                                GS05P02GBC0020

11/14/02        A020254         Audit of Request for Equitable Adjustment:
                                Terry’s Floor Fashions, Inc., Contract
                                Number GS-04P-97-EXC-0015




46 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put To      (Unsupported)
Report     Number             Title                               Better Use         Costs


11/14/02   A020223   Preaward Audit of a Claim: Fine Painting
                     Co., Inc., Subcontractor to Turner
                     Construction Company, Contract Number
                     GS-02P-95-DTC-0014

11/18/02   A020259   Preaward    Audit   of Construction
                     Management Services Contract: URS
                     Corporation, Contract Number GS-
                     02P01DTC-0035(N)

11/20/02   A010279   Preaward Audit of a Claim for Increased
                     Costs: Morse Diesel International, Inc.,
                     U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number
                     GS-09P-95-KTC-0032

11/22/02   A020224   Preaward Audit of a Claim for Increased
                     Costs: Commonwealth Electric Company,
                     Subcontractor to Swinerton Builders, Evo
                     A. DeConcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract No.
                     GS-09P-97-KTC-0008

11/25/02   A020199   Preaward Audit of a Claim: Triangle
                     Grading & Paving, Inc., Subcontractor to
                     Clark Construction Group, Inc., Contract
                     Number GS-04P-97-EXC-0015

12/03/02   A030005   Preaward Audit of Architect and
                     Engineering Services Contract: Phillips
                     Swager Associates, Subcontractor to
                     Koetter, Kim & Associates, Inc., Contract
                     Number GS05P02GBC0020

12/05/02   A030054   Audit of Request for Equitable Adjustment:
                     ISEC Construction Services, GS-04P-97-
                     EXC-0015

12/13/02   A030034   Preaward Audit of Cost or Pricing Data:
                     OPN Architects, Inc., Contract Number
                     GS06P02GZC0520




                                                                       Office of Inspector General 47
                               Appendix II–Audit Report Register

                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put To      (Unsupported)
Report         Number                    Title                                Better Use         Costs


12/19/02        A020249         Preaward Audit of Cost or Pricing Data:
                                HLW International, LLP, Contract Number
                                GS-02P-93-CUC-0062

12/23/02        A020176         Preaward Audit of a Claim for Increased
                                Costs: Vetro, Inc., Contract Number GS-
                                09P-97-KTC-0008

01/03/03        A020208         Preaward Audit of a Claim:          Clark
                                Construction Group, Incorporated, Contract
                                Number GS-04P-97-EXC-0015

01/03/03        A020242         Preaward Audit of Cost or Pricing Data:
                                Stronghold Engineering, Inc., Solicitation
                                Number GS-09P-02-KTC-0069

01/07/03        A020192         Preaward Audit of a Claim for Increased
                                Costs: Swinerton Builders, Evo A. Deconcini
                                U.S. Courthouse & Federal Building, Tucson,
                                Arizona, Contract Number GS-09P-97-KTC-
                                0008

01/09/03        A030075         Preaward Audit of Architect and Engineering
                                Services Contract:          William Rawn
                                Associates, Architects, Inc., Consultant to
                                OPN Architects, Inc., Contract Number
                                GS06P02GZC0520

01/14/03        A030087         Preaward Audit of an 8(a) Sole Source
                                Contract: Ares Group, Inc., Solicitation
                                Number GS-11P-02-MAC-0185

01/15/03        A020250         Preaward Audit of Cost or Pricing Data:
                                Gordon H. Smith Corporation, Consultant to
                                HLW International LLP, Contract Number
                                GS-02P-93-CUC-0062

01/16/03        A030091         Preaward Audit of Cost Accounting
                                Standards Disclosure Statement for Centex
                                Construction    Company,    Incorporated,
                                Contract Number GS-04P-02-EXC-0009

01/17/03        A030082         Audit of Request for Equitable Adjustment:
                                ThyssenKrupp      Elevator    Corporation,
                                Contract Number GS-04P-97-EXC-0015


48 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put To      (Unsupported)
Report     Number             Title                                 Better Use         Costs


01/22/03   A020233   Preaward Audit of a Claim for Increased
                     Costs: Sun Mechanical Contracting, Inc.,
                     Subcontractor to Swinerton Builders, Evo
                     A. DeConcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract
                     Number GS-09P-97-KTC-0008

01/27/03   A030096   Audit of Request for Equitable Adjustment:
                     Spencer Tile Company, Inc., Contract
                     Number GS-04P-97-EXC-0015

01/30/03   A020248   Audit of Claim for Increased Costs:
                     Doan/Lake Erie LLC, Contract Number
                     GS-05P-99-GBC-0012

01/31/03   A030089   Preaward Audit of Architect and
                     Engineering Services Contract: Ewing
                     Cole Cherry Brott, Inc., Solicitation Number
                     GS-03P-03-DXC-0003

02/07/03   A030090   Preaward Audit of Architect and
                     Engineering Contract: Boggs & Partners
                     Architects, Inc., Solicitation Number GS-
                     11P-01-MKC-0011

02/07/03   A020238   Preaward Audit of a Claim for Increased
                     Costs:      Standard     Drywall,   Inc.,
                     Subcontractor to Swinerton Builders, Evo
                     A. DeConcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract
                     Number GS-09P-97-KTC-0008

02/12/03   A030081   Preaward Audit of a Claim for Increased
                     Costs: Hardrock Concrete Placement
                     Company, Inc., Subcontractor to Swinerton
                     Builders, Evo A. DeConcini U.S.
                     Courthouse & Federal Building, Tucson,
                     Arizona, Contract Number GS-09P-97-
                     KTC-0008

02/14/03   A030094   Audit of Request for Equitable Adjustment:
                     General Spray Service, Inc., Contract
                     Number GS-04P-97-EXC-0015




                                                                         Office of Inspector General 49
                               Appendix II–Audit Report Register

                                                                                         Financial
                                                                                     Recommendations
                                                                                 Funds to        Questioned
Date of        Audit                                                            Be Put To      (Unsupported)
Report         Number                    Title                                  Better Use         Costs


02/20/03        A020217         Preaward Audit of Sole Source Contract:
                                NEEKO Construction, Inc., Solicitation
                                Number GS-11P-02-ZGC-0218 “NEG” 8(A)

02/26/03        A030076         Audit of Claim for Increased Costs: Northstar
                                Fire Protection, Subcontractor to Clark
                                Construction Group, Inc., Contract Number
                                GS-04P-97-EXC-0015

03/03/03        A030079         Preaward Audit of Architect and Engineering
                                Services Contract: Daniel, Mann, Johnson &
                                Mendenhall and Holmes & Narver, Inc.,
                                Solicitation Number GS-11P-01-MKC-0011

03/05/03        A030045         Preaward Audit of a Claim: Greenbrier
                                Architectural Woodwork, Subcontractor to
                                Clark Construction Group, Inc., Contract
                                Number GS-04P-97-EXC-0015

03/05/03        A030132         Audit of Claim for Increased Costs: Color,
                                Inc., Subcontractor to The Clark Construction
                                Group,      Inc.,      Contract     Number
                                GS06P96GZC0508

03/06/03        A030083         Audit of Claim for Increased Costs: ADF
                                International, Inc., Subcontractor to Clark
                                Construction Group, Contract Number GS-
                                04P-97-EXC-0015

03/11/03        A030095         Audit of Request for Equitable Adjustment:
                                NLP Enterprises, Inc., Contract Number GS-
                                04P-97-EXC-0015

03/14/03        A020197         Preaward Audit of a Claim: Rael Automatic
                                Sprinkler Co., Inc., Subcontractor to Turner
                                Construction Company, Contract Number
                                GS-02P-95-DTC-0014

03/20/03        A020251         Audit of Claim for Increased Costs: The
                                Cleveland Marble Mosaic Company,
                                Contract Number GS-05P-99-GBC-0043




50 Semiannual Report to the Congress
                       Appendix II–Audit Report Register

                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
  Date of    Audit                                                 Be Put To      (Unsupported)
  Report     Number               Title                            Better Use         Costs


03/21/03    A030098   Preaward     Audit     of  Construction
                      Management Services Contract: Parsons
                      Brinckerhoff Construction Services, Inc.,
                      Solicitation Number GS-02P-02-DTC-
                      0029(N)

03/21/03    A020133   Preaward Audit of a Claim for Increased
                      Costs:    Cosco Fire Protection, Inc.,
                      Subcontractor      to   Morse     Diesel
                      International, Inc., U.S. Courthouse &
                      Federal Building, Sacramento, California,
                      Contract Number GS-09P-95-KTC-0032

03/21/03    A030126   Preaward Audit of Architect/Engineering
                      Proposal:   Thompson Vaivoda and
                      Associates Architects, Inc., Solicitation
                      Number GS-10P-02LTC-0039

03/25/03    A030130   Preaward Audit of Architect and
                      Engineering Services Contract: GHT,
                      Limited, Solicitation Number GS-11P-01-
                      MKC-0011

FSS Internal Audits
12/17/02    A020205   Review of Department of Defense Use of
                      Military  Interdepartmental  Purchase
                      Requests for Hardware SuperStore
                      Purchases

02/04/03    A020216   Limited Audit of the Federal Supply
                      Service’s Performance Measure: “Reduce
                      the FSS Operating Cost Per $100
                      Business Volume”

03/18/03    A020161   Audit of the Consolidation of Distribution
                      Center Operations: Impact on Shipment
                      Costs & Delivery Times

03/20/03    A030036   Audit of Inventory of Sensitive Items,
                      Western Distribution Center, Federal
                      Supply Service, Pacific Rim Region

03/31/03    A020146   Audit of FSS’s City Pair Program




                                                                        Office of Inspector General 51
                               Appendix II–Audit Report Register

                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put To      (Unsupported)
Report         Number                    Title                                Better Use         Costs


03/31/03        A030003         Audit of the Vancouver Fleet Management
                                Center, Northwest/Arctic Region

FSS Contract Audits
10/02/02        A020179         Preaward Audit of Multiple Award Schedule
                                Contract Extension, Contract Number GS-
                                07F-8645C: DHS Systems, LLC

10/02/02        A020178         Preaward Audit of Multiple Award Schedule
                                Contract Modification: Motorola, Inc., GSA
                                Contract Number GS-35F-0004L

01/23/03        A020182         Interim Period Postaward Audit of Multiple
                                Award Schedule Contract: John Deere
                                Construction & Forestry Company, Contract
                                Number GS-30F-1021D

01/27/03        A030055         Preaward Audit of Multiple Award Schedule
                                Contract:      Krueger International, Inc.,
                                Solicitation Number 3FNO-M1-0100001-B

02/06/03        A995169         Limited Scope Postaward Audit of Multiple                           $94,221
                                Award, Schedule Contract: Viking Acoustical
                                Corporation, Contract Number GS-00F-
                                5004A

03/06/03        A030038         Preaward Audit of Multiple Award Schedule
                                Contract:   Eastman Kodak Company,
                                Contract Number GS-25F-0122M

03/25/03        A030140         Limited Scope Review of Termination Claim:
                                Science     Applications     International
                                Corporation, Contract Number GS-35F-
                                4461G, Task Order Number T0002SJ0159

FTS Internal Audits
10/15/02        A020216         Limited Audit of the Federal Technology
                                Service’s      Performance       Measure:
                                “Percentage of Satisfied FTS Customers as
                                Indicated on Annual Customer Survey”




52 Semiannual Report to the Congress
                        Appendix II–Audit Report Register

                                                                               Financial
                                                                           Recommendations
                                                                       Funds to        Questioned
Date of    Audit                                                      Be Put To      (Unsupported)
Report     Number                Title                                Better Use         Costs


11/15/02   A010242      Audit of the Mid-Atlantic Federal
                        Technology Service’s Usage of the
                        Citibank Visa Purchase Credit Card

11/20/02   A010163      Systems Audit of FTS’          Information
                        Technology Solutions Shop

03/06/03   A020144      Alert Report on Audit of          Federal
                        Technology Service’s Client       Support
                        Centers

03/27/03   A020222      Audit of the Purchase Card Program in the
                        National     Capital  Region,    Federal
                        Technology Service

03/31/03   A020149      Review of Controls over FTS Associates’
                        Use of Purchase Cards

FTS Contract Audits
11/27/02   A020188      Limited Postaward Audit of Billings under                           $2,269
                        the AT&T-ID3 Contract: AT&T Corporation,
                        Contract Number GS00T97NSD0022

Other Internal Audits
10/16/02   A020231      Limited Audit of the Fiscal Year 2002
                        Federal Managers’ Financial Integrity Act
                        Section 2 Assurance Statements

11/27/02   A020216      Report on Internal        Controls   Over
                        Performance Measures

12/11/02   A020252      Review of the Accounting for OGP’s
                        Catalog of Domestic Assistance Programs

12/20/02   A020231      Limited Audit of the Chief Financial
                        Officer’s FY 2002 Federal Managers’
                        Financial Integrity Act Section 4 Assurance
                        Statement

01/06/03   A020256      Review of Controls for GSA’s Privacy Act
                        Data




                                                                           Office of Inspector General 53
                               Appendix II–Audit Report Register

                                                                                         Financial
                                                                                     Recommendations
                                                                                 Funds to        Questioned
Date of        Audit                                                            Be Put To      (Unsupported)
Report         Number                    Title                                  Better Use         Costs


01/24/03        A020216         Limited Audit of the Office of the Chief
                                Financial Officer’s Performance Measure:
                                Percentage of Invoices Paid Electronically

02/04/03        A020216         Limited Audit of the Chief People Officer’s
                                Performance Measure: “Increase the Rank
                                Percentile in the Gallup Q12 Survey Which
                                Measures Culture in the Agency”

02/25/03        A020237         Review of the Operations of           GSA’s
                                Emergency Management Office

02/26/03        A020163         EDP Management Letter Fiscal Year 2002
                                Financial Statement Audit

03/04/03        A030108         Audit of Purchase Card Usage in GSA Staff
                                Offices

03/18/03        A020163         Audit     of    the     General    Services
                                Administration’s Fiscal Years 2002 and 2001
                                Financial Statements

03/24/03        A020216         Limited Audit of the Office of Small Business
                                Utilization’s Performance Measure: “Achieve
                                or Exceed GSA-Wide Small Business
                                Procurement Goals”

03/27/03        A030057         Results of Proactive Desk Review in the
                                Greater Southwest Region for Compliance
                                with Purchase Card Program Requirements

03/31/03        A020120         Audit of the GSA Wide Area Backbone
                                Network

03/31/03        A020083         Review of Payments for Guard Service
                                Contracts, Greater Southwest Finance
                                Center

03/31/03        A020117         Review of GSA’s Implementation of the
                                Requirements of Section 508 of the
                                Rehabilitation Act




54 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put To      (Unsupported)
Report     Number             Title                              Better Use         Costs


Non-GSA Internal Audits
11/12/02   A020163   General Services Administration Office of
                     Inspector General’s Report on Applying
                     Agreed-Upon Procedures

12/12/02   A020163   Report      on Applying Agreed-Upon
                     Procedures Re: FY 2002 Environmental
                     Liabilities

12/16/02   A020163   Report    on  Applying      Agreed-Upon
                     Procedures Re:       FY     2002 Loss
                     Contingencies

01/23/03   A020209   Audit of the Administrative Procedures of
                     the National Capital Planning Commission
                     for Fiscal Years 2000 and 2001




                                                                      Office of Inspector General 55
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
11/01/96       A21882          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                               September 30, 1991

11/01/96       A31851          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02598 for the Period August 26, 1988 Through
                               March 31, 1991

11/01/96       A31865          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02046 for the Period December 4, 1987 Through
                               September 30, 1990

03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

08/22/97       A70646          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                               GS-02P-94-CUC-0070(N)




56 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


09/22/97   A70649    Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                     Beacon/Pro Con, Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97   A71526    Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                     Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                     January 31, 2001

10/23/97   A70655    Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor
                     to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/24/97   A70660    Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                     Contract Number GS-02P-94-CUC-0070(N)

11/12/97   A70656    Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                     Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97   A22536    Postaward Audit of Multiple Award Schedule Contract:        Ingres Corporation,
                     Contract Number GS00K89AGS5589

11/26/97   A32476    Limited Audit of Government Billings:    Ingres Corporation, Contract Number
                     GS00K89AGS5589

12/24/97   A80602    Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                     Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80604    Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                     Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80608    Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                     GS-02P-94-CUC-0070(N)

02/05/98   A80609    Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                     Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                     CUC-0070(N)

02/11/98   A80607    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070(N)

03/19/98   A81515    Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                     Contract Number GS-07P-92-HUC-0017

04/13/98   A80621    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070 (N)

05/27/98   A42146    Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                     Contract Number GS-00F-07010




                                                                          Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H

09/24/98       A82456          Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                               Contract Number GS-07P-95-HUC-0068

10/13/98       A80636          Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                               Number GS-02P-96-DTC-0033

11/16/98       A80646          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070(N)

02/05/99       A995113         Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                               Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/17/99       A995100         Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                               Inc., Contract Number GS-03P-96-DXC-0021

03/24/99       A995128         Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                               Morse Diesel International, Inc., Contract Number GS06P95GZC0501

03/30/99       A995150         Preaward Audit of Supplemental Architect and Engineering Services Contract;
                               Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                               PLD-0015(N)

04/02/99       A995182         Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                               Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

05/05/99       A995151         Preaward Audit of Supplemental Architect and Engineering Services Contract:
                               Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

06/08/99       A995192         Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                               1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                               Number GS-26F-1018B

06/15/99       A42113          Postaward Audit of Multiple Award Schedule Contract:       Herman Miller Inc.,
                               Contract Number GS-00F-07000




58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of    Audit
Report     Number                                   Title


06/15/99   A995171   Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                     EMN-1999-MO-2032 & EMN-1999-MO-2036

06/18/99   A995220   Audit of Claim for Increased Costs: PM Realty Group, Ltd., Contract Number
                     GS05P96GAC0187

06/22/99   A995164   Preaward Audit of Multiple Award Schedule Contract:          Compaq Computer
                     Corporation, Extension to Contract Number GS-35F-4544G

06/24/99   A995231   Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                     GS-02P-95-DTC-0041(N)

07/07/99   A995249   Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                     Number GS-02P-95-DTC-0041(N)

07/07/99   A995209   Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                     92CUC0029(N)

07/30/99   A995173   Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                     1999-MO-2032 & EMN-1999-MO-2036

08/12/99   A995215   Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                     & EMN-1999-MO-2036

09/09/99   A995283   Preaward Review of Multiple Award Schedule Contract:          National Education
                     Training Group, Inc., Contract Number GS-02B-22885

09/15/99   A52534    Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                     Contract Number GS00K91AGS5288

09/15/99   A52565    Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                     Contract Number GS00K91AGS5288 (PS01)

09/15/99   A52566    Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                     Contract Number GS00K91AGS5288 (PS02)

09/23/99   A995296   Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                     Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                     2004

10/04/99   A995275   Preaward Audit of Change Order Proposal to Contract Number GS-
                     02P93CUC0071 for the Final Phase of the African Burial Ground Project, Howard
                     University

10/13/99   A995262   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract GS-02P-95-DTC-0014(N)




                                                                           Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

11/29/99        A995304         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                October 1, 1999 Through September 30, 2004: Coastal Video Communications
                                Corp., Contract Number GS-02F-9309C

11/30/99        A995289         Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                                Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                                Number GS-02P-93-CUC-0062

12/08/99        A995330         Preaward Audit of Multiple Award Schedule Contract:         Caswell International
                                Corporation, Contract Number GS-02F-0434D

01/07/00        A000821         Preaward Audit of the Extension of Multiple Award Schedule Contract Number GS-
                                02F-1407H: Development Dimensions International, Inc.

01/11/00        A000819         Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                                Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                                93-CUC-0062

02/08/00        A995167         Price Adjustments on Multiple Award Schedule Contract: National Education
                                Training Group, Inc., Contract Number GS-02F-0429D for the Interim Period March
                                1, 2000 Through March 31, 2000

02/15/00        A40910          Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                                Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992

02/17/00        A000923         Preaward Audit of Multiple Award Schedule Contract:          Shamrock Scientific
                                Specialty Systems, Inc., Contract Number GS-14F-9732C

03/02/00        A000934         Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                                Inc., Contract Number GS-14F-0150D

03/06/00        A000948         Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                                Number GS-14F-0161D

03/06/00        A000963         Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                                96-DTC-0033




60 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


03/09/00   A000911   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                     Contract Number GS-14F-9734C

03/10/00   A000936   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc.,
                     Contract Number GS-14F-0177D

03/29/00   A81830    Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                     March 8, 1991 Through February 29, 1996

03/29/00   A995122   Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                     Period March 1, 1996 Through April 30, 1998

04/04/00   A000943   Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/17/00   A000889   Preaward Audit of a Claim for Increased Costs: Italian Marble and Tile Company,
                     Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                     U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/25/00   A000975   Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                     Contract Number GS-14F-0193D

05/02/00   A000918   Preaward Audit of a Claim for Increased Costs: Morrow-Meadows Corporation,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/08/00   A000944   Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company,
                     Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                     U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/11/00   A000950   Preaward Audit of a Claim for Increased Costs: Moon and Crockett Plumbing
                     Corporation, Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                     Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                     KTC-0012

05/11/00   A000993   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

05/16/00   A001007   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Franklin Covey, Contract Number
                     GS-14F-9729C




                                                                         Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


05/18/00        A000961         Preaward Audit of a Claim for Increased Costs: Washington Iron Works,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/18/00        A001009         Limited Postaward Audit of Multiple Award Schedule Contract:        Day Runner,
                                Incorporated, Contract Number GS-14F-0193D

05/25/00        A000955         Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                                GS-23F-98006

05/26/00        A000853         Preaward Audit of a Claim for Increased Costs: Ray Wilson Company, Ronald
                                Reagan Federal Building & U.S. Courthouse, Santa Ana, California, Contract
                                Number GS-09P-95-KTC-0012

06/01/00        A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                                Triangle Project

06/27/00        A000860         Interim Postaward Audit: Voyager Fleet Systems, Inc.’s Compliance with Fuel Tax
                                Requirements under Contract Number GS-23F-98006

06/30/00        A001000         Limited Scope Postaward Audit: AOC Solutions, Inc., Contract Number GS-23F-
                                98006

07/19/00        A000940         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

07/27/00        A001028         Limited Review of Contract Extension Claim: International Services, Inc., Contract
                                Number GS-02P-94-CTD-0141

07/28/00        A000916         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/01/00        A001001         Preaward Audit of a Claim for Increased Costs: Aztec Fire Protection, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/23/00        A001018         Preaward Audit of a Claim for Increased Costs: Borbon, Inc., Subcontractor to Ray
                                Wilson Company, Ronald Reagan Federal Building & U.S. Courthouse, Santa Ana,
                                California, Contract Number GS-09P-95-KTC-0012

08/24/00        A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/28/00        A001023         Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012



62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


08/31/00   A001044   Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

09/28/00   A001051   Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Solicitation
                     Number FCIS-JB-980001B-03-23-98

10/17/00   A001024   Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/25/00   A001098   Preaward Audit of a Claim for Increased Costs: Well-Bilt Aluminum Products,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

10/30/00   A000942   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00   A001082   Preaward Audit of a Claim for Increased Costs: Invensys Building Systems, Inc.,
                     Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                     Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                     KTC-0012

11/08/00   A001085   Preaward Audit of a Claim for Increased Costs: D. Burke Mechanical Corp.,
                     Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                     Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                     KTC-0012

11/09/00   A001078   Preaward Audit of a Claim (Unresolved Change Orders): Warren Electrical
                     Construction Corporation, Subcontractor to Archer-Western Contractors, Ltd.,
                     Contract Number GS-03P-96-DXC-0017

12/07/00   A001025   Preaward Audit of a Claim for Increased Costs: Aztec Contracting, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

12/13/00   A010047   Preaward Audit of Claim: Culpepper Construction Company, Inc., Contract
                     Number GS-04P-96-EXC-0033

01/10/01   A001092   Audit of Billings under Contract Number GS06P99GZC0304: Wayne Automatic
                     Sprinkler Corporation, Subcontractor to Fire Assurance, Inc.

01/10/01   A001021   Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                     Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                     0322J

01/10/01   A001021   Postaward Audit of Multiple Award Schedule Contract and Industrial Funding Fee:
                     Merant, Inc. for the Interim Period March 26, 1999 Through September 30, 2000,
                     Contract Number GS-35F-0322J




                                                                          Office of Inspector General 63
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


01/25/01       A001081         Preaward Audit of a Claim for Increased Costs: Coken Company, Inc.,
                               Subcontractor to Dick Corporation, U.S. Courthouse & Federal Building, Phoenix,
                               Arizona, Contract Number GS-09P-96-KTC-0070

01/29/01       A000909         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                               02P-95-DTC-0014

02/06/01       A010094         Preaward Audit of a Claim: Smith & Oby Company, Contract Number GS-05P-99-
                               GBC-0025

02/08/01       A010089         Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                               Courthouse, Pensacola, FL, Lease Number GS-04B-35055

02/12/01       A001047         Preaward Audit of a Claim (Time Impact Costs): Warren Electrical Construction
                               Corporation, Subcontractor to Archer-Western Contractors, Ltd., Contract Number
                               GS-03P-96-DXC-0017

02/15/01       A001072         Audit of Claim for Increased Costs: Archer-Western Contractors, Ltd., Contract
                               Number GS-03P-96-DXC-0017

02/28/01       A010093         Preaward Audit of a Change Order Proposal:        J. Kokolakis Contracting, Inc.,
                               Contract Number GS-02P-98-DTC-0056N

03/02/01       A010099         Preaward Audit of Multiple Award Schedule Contract: Security Engineered
                               Machinery Company, Incorporated, Solicitation Number FCO-00-CORP-0000C

03/07/01       A010100         Audit of Claim for Unresolved Change Orders: Archer-Western Contractors, Ltd.,
                               Contract Number GS-03P-96-DXC-0017

03/20/01       A001119         Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                               99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01       A010169         Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                               Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01       A010127         Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                               Inc.

05/11/01       A010128         Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                               J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01       A010160         Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                               Number 2PCB-CM-010174

05/30/01       A010175         Preaward Audit of Cost or Pricing Data:       Caswell International Corporation,
Contract                       Number GS-02F-0434D




64 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of    Audit
Report     Number                                  Title


05/31/01   A010118   Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                     Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                     98-KTC-0020

06/06/01   A000965   Limited Scope Postaward Audit of Multiple Award Schedule Contract for the Period
                     July 1, 1999 Through December 31, 1999: Franklin Covey, Contract Number GS-
                     14F-9729C

06/19/01   A001113   Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                     GS-23F-98006 for the Interim Period November 30, 1998 Through December 31,
                     2000

07/03/01   A010168   Audit of Claim for Increased Costs: C.W. Fentress J.H. Bradburn and Associates,
                     P.C., Contract Number GS-07P-91-JXC-0062

07/10/01   A010201   Preaward Audit of Multiple Award Schedule Contract:        ABM Federal Sales,
                     Solicitation Number FCGE-C1-00-0001-B

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01   A010222   Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                     Solicitation Number GS-09P-00-KTC-0088

08/16/01   A010122   Interim Postaward Audit of Multiple Award Schedule Contract: ABM, Inc., Contract
                     Number GS-26F-1002B

09/17/01   A010221   Preaward Audit of Multiple Award Schedule Contract:           Konica Business
                     Technologies, Inc., Solicitation Number FCGE-C100-0001-B

09/26/01   A010253   Price Adjustments on Multiple Award Schedule Contract: TransUnion Corporation,
                     Contract Number GS-22F-9602D for the Interim Period November 1, 2001 Through
                     April 30, 2005

09/27/01   A010206   Audit of Actual Cost Incurred to Determine Shared Savings Under Phase I of
                     Contract Number GS-04P-97-EXC-0005: Whiting-Turner Contracting Company

09/28/01   A010254   Audit of Payments: Paragon Systems Contract Number GS-04P-98-EYC-0117

09/28/01   A010252   Limited Scope Postaward Audit Review of Industrial Funding Fee Remittances:
`                    ABM, Inc., Various GSA Multiple Award Schedule Contract Numbers

10/03/01   A010251   Audit of Supplemental Architect and Engineering Services Contract:           C.M.
                     Architecture, P.A., Contract Number GS05P01GBD0050




                                                                          Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


10/04/01        A010250         Audit of Supplemental Architect and Engineering Services Contract: Ross Barney
                                & Jankowski, Inc., Contract Number GS05P01GBD0050

10/18/01        A63630          Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                March 31, 1996

10/19/01        A010215         Preaward Audit of a Claim for Increased Costs: Century Steel, Inc., Subcontractor
                                to J.A. Jones Construction Company, Lloyd D. George U.S. Courthouse, Las
                                Vegas, Nevada, Contract Number GS-09P-97-KTC-0014

10/23/01        A010172         Audit of Billings under Various Contracts: Jensen Electric and Service Company

10/31/01        A010246         Preaward Audit of Multiple Award Schedule Contract for the Period October 1,
                                2001 through September 30, 2005: Kyocera Mita America, Inc., Solicitation
                                Number FCGE-C1-00-0001-B

10/31/01        A010265         Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                                Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

11/08/01        A010214         Preaward Audit of a Claim for Increased Costs: Strocal, Inc., Subcontractor to J.A.
                                Jones Construction Company, Lloyd D. George U.S. Courthouse, Las Vegas,
                                Nevada, Contract Number GS-09P-97-KTC-0014

11/29/01        A010011         Limited Scope Postaward Audit: MasterCard International’s Compliance with Fuel
                                Tax Requirements under GSA’s SmartPay Contract

11/30/01        A020039         Preaward Audit of Architect and Engineering Services Contract: Kohn Pedersen
                                Fox Associates, P.C., Solicitation Number GS-02P-01-DTC-0018(N)

12/13/01        A010271         Preaward Audit of Change Order Proposal: John C. Grimberg Co., Inc., Contract
                                Number GS-11P99MAC0057

12/18/01        A001123         Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                                Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                                April 30, 1991

12/20/01        A010209         Preaward Audit of Multiple Award Schedule Contract:           Xerox Corporation,
                                Solicitation Number FCGE-C1-00-0001-B

01/11/02`       A010281         Preaward Audit of a Claim for Increased Costs: LawsonMechanical Contractors,
                                Subcontractor to Morse DieselInternational, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/17/02        A010247         Preaward Audit of Multiple Award Schedule Contract:             Cummings-Allison
                                Corporation, Solicitation Number FCGE-C1-00-0001-B




66 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


01/17/02   A010247   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Cummings-
                     Allison Corporation, Contract Number GS-25F-5126C

01/23/02   A010275   Audit of Termination Settlement Proposal:     Ross Barney +Jankowski, Inc.,
                     Contract Number GS06P99GZC0010

01/30/02   A010115   Preaward Audit of Multiple Award Schedule Contract:       Minolta Corporation,
                     Solicitation Number FCGE-C1-00-0001-B

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

02/26/02   A010220   Preaward Audit of a Claim for Increased Costs: J.A. Jones Construction Company,
                     Inc., Lloyd D. George U.S. Courthouse, Las Vegas, Nevada, Contract Number GS-
                     09P-97-KTC-0014

03/07/02   A020108   Limited Scope Postaward Audit of the Industrial Funding Fee Submitted under
                     Multiple Award Schedule Contract Number GS26F1006B: Kyocera Mita America,
                     Inc.




                                                                         Office of Inspector General 67
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                           Projected Final
Report         Number                                         Title                             Action Date


Internal Audits
12/02/96        A63019          Audit of the PAPCAP Price Adjustments                                05/15/03

03/24/99        A995025         Audit of Security Measures for New and Renovated Federal            12/15/03
                                Facilities

07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year            01/15/04
                                1998 Financial Statement Audit

03/28/00        A995175         Audit of the Federal Protective Service’s Contract Guard Program     04/15/03

03/31/00        A995010         PBS Needs to Complete STAR Development and Implement                 10/15/03
                                Management and System Controls to Fully Realize Improved
                                Capabilities

08/02/00        A995201         PricewaterhouseCoopers LLP Management Letter Fiscal Year            06/15/03
                                1999 Financial Statement Audit

03/27/01        A000968         Review of Operating Equipment Inventories:      Public Buildings     06/15/03
                                Service, New England Region

05/29/01        A001012         PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and Year-       06/15/03
                                End Management Letters

06/21/01        A000811         GSA’s Increasing Use of Electronic Commerce Systems Requires         08/15/03
                                Improved Security

09/28/01        A010044         Audit of the Public Buildings Service’s Asset Business Plans         11/15/03

10/17/01        A001122         Review of PBS Use of the Occupancy Agreement                         06/15/03

02/07/02        A010187         EDP Management Letter FY 2001 Financial Statement Audit              07/15/03

03/27/02        A010129         Audit of the Federal Protective Service’s Federal Security Risk      07/15/03
                                Manager Program




68 Semiannual Report to the Congress
                                 Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                  ARCS increased by 32.25 percent over the total
                                                             amount of Fund 255X claims recorded in ARCS as
Collection                                                   of October 31, 2002. One new liquidated damage
During the period October 1, 2002 through March 31,          claim against Contrail Aviation is accountable for
2003, GSA efforts to improve debt collection and             89.6 percent of this increase. The fate of the claim
reduce the amount of debt written off as uncollectible       has not been decided by the GSA Board of Contract
focused on upgrading the collection function and             Appeals.
enhancing debt management.         These activities
included the following:                                    • On April 23, 1993, the U.S. District Court in
                                                             Colorado ordered an individual to reimburse GSA
• In compliance with the Debt Collection Improvement         $12,536 as a penalty for conspiring to use an unau-
  Act of 1996, GSA transmits delinquent claims each
                                                             thorized access device with the intent to defraud.
  month to the U.S. Department of the Treasury
                                                             The Department of Justice (DOJ) received and
  (Treasury) Financial Management Service (FMS) for
  collection cross servicing.                                transferred to GSA installment payments totaling
                                                             $7,301, from October 1994 through November
• Persistent claims coordination among regional con-         1997. However, the debtor stopped making pay-
  tracting officers, Treasury, and our Finance Centers       ments in December 1997. GSA pursued the
  continues to strengthen our claims collection efforts.     remaining balance due with the U.S. Attorney’s
                                                             office in Colorado. In a letter dated September 26,
• Efforts continue to enhance the Accounts                   2001, the U.S. Attorney advised GSA their policy is
  Receivable Claims System (ARCS), Version 6, and            “once a defendant’s supervision expires, it is up to
  the Billing Accounts Receivable Tracking (BART)            the victim to pursue collection.” The claim was
  system, making them better tools for collection tech-      referred to FMS for collection cross-servicing on
  nicians and enabling them to provide better service        February 25, 2002. As a result, GSA received two
  to their customers. ARCS is now able to make auto-         payments from Treasury in December 2002, paying
  mated accounting entries for settlement agreements         the debt in full.
  and simplifies our ability to redistribute
  caseload among technicians.                              • As of February 28, 2003, the District of Columbia
                                                             (DC) Government owed GSA $884,049 for supply
• GSA has been working with Treasury’s FMS to
                                                             bills over two years old. As a result, the Federal
  remove all non-paying claims over two years old
                                                             Supply Service (FSS) suspended DC’s authority to
  from open receivables. We have implemented a
  100-day plan to review and contact delinquent              purchase new non-emergency vehicles until they
  accounts on a quarterly basis. This will ensure            pay the delinquent outstanding accounts. A confer-
  every effort has been made to collect a debt before        ence call with DC, FSS, and GSA Finance was held
  it becomes two years old and is written off as uncol-      in March to discuss payment of the bills. A list of all
  lectible.                                                  outstanding supply bills was sent to the DC
                                                             Inspector General. DC officials are currently
• During November 2002, the total amount of Federal          researching and gathering information for a meeting
  Supply Fund (255X) non-Federal claims recorded in          to be held later this spring.




                                                                                       Office of Inspector General 69
                                  Appendix IV–Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

Non-Federal Accounts Receivable

                                                  As of                   As of
                                              October 1, 2002         March 31, 2003   Difference

   Total Amounts Due GSA                        $18,534,176            $20,815,885     $2,281,709

   Amounts Delinquent                            $13,110,933           $12,683,773     ($ 427,160)

   Total Amount Written
   Off as Uncollectible
   Between 10/01/02 and
   3/31/03                                          $870,865




70 Semiannual Report to the Congress
                                      Appendix V–Reporting Requirements




The table below cross-references the reporting require-                          Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                           1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                 and the National Defense Authorization Act is also
addressed.     The information requested by the                                  cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29–32

     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 19

     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 19

     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . .43

     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .38

     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45

     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . .2, 19

     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36

     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .69

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .56




                                                                                                                         Office of Inspector General 71
                             Appendix VI–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Daniel R. Levinson (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Deputy Inspector General, Joel S. Gallay (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362


  Office of Counsel to the Inspector General
  Counsel to the IG, Kathleen S. Tighe (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

  Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


  Office of Internal Evaluation
  Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


  Office of Audits
  Assistant IG for Auditing, Eugene L. Waszily (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

  Deputy Assistant IG for Auditing, Andrew Patchan, Jr. (JAD) . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374


  Headquarters Regional Inspectors General for Auditing (RIGAs)
  Finance & Staff Offices Audit Office, RIGA Richard M. Gallagher (JA-F) . . . . . . . . . . . . . .(202) 501-0006

  Information Technology Audit Office, RIGA Gwendolyn A. McGowan (JA-T) . . . . . . . . . . .(703) 308-1223

  Acquisition Programs Audit Office, RIGA Henry Noll, Jr. (JA-A) . . . . . . . . . . . . . . . . . . . . .(703) 603-0189

  Real Property Audit Office, RIGA Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


  Regional Inspectors General for Auditing (RIGAs)
  National Capital Field Office, RIGA Andrew A. Russoniello (JA-W) . . . . . . . . . . . . . . . . . .(202) 708-5340

  New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

  Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . . .(212) 264-8620

  Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

  Southeast Sunbelt Field Office, RIGA Warren T. Platt (JA-4) . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

  Great Lakes Field Office, RIGA David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781




72 Semiannual Report to the Congress
                        Appendix VI–OIG Offices and Key Officials



Regional Inspectors General for Auditing (RIGAs) continued
The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, Acting RIGA Joseph J. Brewster (JA-9) . . . . . . . . . . . . . . . . . . . .(415) 522-2744

  Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


Office of Investigations
Assistant IG for Investigations, James E. Henderson (JI) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . . .(202) 501-1397



Regional Inspectors General for Investigations (RIGIs)
Washington Zone Office, RIGI Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Atlanta Sub-Office, Assistant RIGI Lee P. Quintyne (JI-W/ATL) . . . . . . . . . . . . . . . . . . . .(404) 331-5126

New York Zone Office, RIGI Peter P. Maino (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

  Boston Sub-Office, Assistant RIGI Joseph J. Dziczek (JI-2/BOS) . . . . . . . . . . . . . . . . . .(617) 565-6820

  Philadelphia Sub-Office, Special Agent James Barry (JI-2/PHI) . . . . . . . . . . . . . . . . . . .(215) 446-4830

Chicago Zone Office, RIGI Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

  Cleveland Sub-Office, Special Agent James T. Sohayda (JI-5/CLE) . . . . . . . . . . . . . . . .(216) 522-2155

  Kansas City Sub-Office, Assistant RIGI John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . . .(816) 926-7214

  Fort Worth Sub-Office, Assistant RIGI Charles D. Yandell (JI-5/FW) . . . . . . . . . . . . . . . .(817) 978-2589

San Francisco Zone Office, RIGI Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

  Auburn Sub-Office, Assistant RIGI Randal A. Stewart (JI-9/AUB) . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

  Human Resources Division, Director James J. Matthews (JPH) . . . . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Larry C. Begley (JPM) . . . . . . . . . . . . . . . . . .(202) 501-3134

  Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




                                                                                                   Office of Inspector General 73
                                       Notes




74 Semiannual Report to the Congress
Ii ,
II


I



             II


I           I          II



To report suspected waste, fraud, abuse, or
mismanagement in GSA, call


I nsp ctor                  eneral's   otlin
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405


Office of Inspector General
U.S. General Services Administration
